No.

IN THE
SUPREME COURT OF THE UNITED STATES

RAFAEL ARTURO COTO CHINCHILLA - Petitioner
VS.
STATE OF LOUISIANA - Respondent.

APPENDIX
Please find the following documents enclosed:

APPENDIX “A”

Original Brief of Appellant, Filed on behalf of Petitioner, by the
Louisiana Appellate Project, into the Court of Appeal, Fifth Circuit,
State of Louisiana

APPENDIX “B”

Original Brief of the State of Louisiana, filed into the Court of Appeal,
Fifth Circuit, State of Louisiana

APPENDIX “C”

Decision on Appellant’s Brief, from the Court of Appeal, Fifth Circuit,
State of Louisiana, Docket No. 20-KA-60.

APPENDIX “D”

Application for Writ of Certiorari Filed by Petitioner, Pro Se, into the
Supreme Court of the State of Louisiana

APPENDIX “E

Decision by the Supreme Court of the State of Louisiana, Denying Writ
for Petitioner, Docket No. 2021-KO-00274.

55 '

22

rr

*

j

i

.1

APPENDIX - A
j

\

*

/

’

)

IN THE
COUBTJQF APPEAL, FIFTH CIRCUIT
STATE OF LOUISIANA

No. 2020-KA-0060

STATE OF LOUISIANA,
Appellee
versus
RAFAEL CHINCHILLA,
Appellant

ON APPEAL FROM THE CRIMINAL DISTRICT COURT
IN AND FOR THE PARISH OF JEFFERSON, STATE OF
LOUISIANA, THE HONORABLE E. ADRIAN JONES, JUDGE
PRESIDING, NO. 17-1472 “G”

ORIGINAL BRIEF OF APPELLANT

RESPECTFULLY SUBMITTED,

LOUISIANA APPELLATE PROJECT

Jane L. Beebe
Bar Roll No. 23642
P. O. Box 463
Addis, LA 70710
[504] 263-8081

(Criminal Appeal}

«

TABLE OF CONTENTS

STATEMENT OF JURISDICTION

5

STATEMENT OF THE CASE

5

ASSIGNMENT OF ERROR ONE
Unanimous Jury/Ramos

6

ASSIGNMENT OF ERROR TWO
Sufficiency of the Evidence

6

ASSIGNMENT OF ERROR THREE
Improper Closing Argument

6

ISSUES PRESENTED

7

STATEMENT OF THE FACTS

7

SUMMARY OF THE ARGUMENT

14

STANDARD OF REVIEW

14

ARGUMENT ISSUE I

15

ARGUMENT ISSUE II

17

ARGUMENT ISSUE III

21

CONCLUSION

23

CERTIFICATE OF SERVICE

24

Exhibit A- Minute entry of the commitment
Exhibit B - Pro Se Briefing Notice

O

TABLE OF AUTHORITIES
CASES
Burch v. Louisiana, 441 U.S. 130, 134, 99 S’. Ct. 1623, 1625 (1979)

15

Chapman v. California, 386 U.S. 18, 87 S. Ct. 824,
17 L. Ed. 2d 705 (1967)

22

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct 2781,
61 L.Ed. 2d 560(1979)

17

Johnson v. Louisiana, 406 U.S. 356, 92 S. Ct. 1620,
32 L. Ed. 2d 152 (1972)

15

Ramos v>. Louisiana, 2020 U.S. LEXIS 2401, U.S. S. Ct. No. 18-5924

14

State v. Arceneaux, 19-60 ( La. App. 3 Cir 10/09/19)

15

State v. Ardison, 52739 ( La. App. 2 Cir 06/26/19),
15

211 So. 3d 883, 897
State v. Aucoin, 500 So. 2d 921,925 (La. Ct. App. 1987)

16

State v. Biagas, 260 La. 69, 255 So.2d 77

14

(La.

1971)

State v. Bourque, 622 So. 2d 198 (La. 1993)

15

State v. Bradford, 298 So. 2d 781,785 (La. 1974)

14

State v. Dixon, 620 So.2d 904 (La. App. 1st Cir 1993)

18

State v. Foster, 09-837 (La. App. 5 Cir. 6/29/10),
33 So.3d 733, 741-3

22

State v. Francis, 95-194 (La. App. 5 Cir. 11/28/95),
665 So.2d 596, 604

22

State v. Huckabay, 00-1082 (La. App. 4 Cir. 2/6/02),
809 So.2d 1093, 1110;

22

State v. Hunt, 09-1589 (La. 12/1/09), 25 So.3d 746

13

State v. Jackson, 04-293, (La. App. 5 Cir. 7/27/04), 880 So.2d 69

21-2

State v. Matthews, 375 So.2d 1165 (La. 1979)

18

State v. Perow, 616 So.2d 1336 (La. App. 3d Cir. 1993)

18

State v. Robertson, 08-297 (La. App. 5 Cir. 10/28/08),
995 So.2d 650

21

3

i

State v. Smallwood, 09-86, (La. App. 5 Cir. 7/28/09),
20 So.3d 479, 489

21

State v. Wrestle Inc., 360 So. 2d 831 (La. 1978)

15

Sullivan v. Louisiana, 508 U.S. 275, 113 S. Ct.'2078,
124 L. Ed. 2d 182(1993)

23

CONSTITUTIONS
La. Constitution, Article V, Section 10(A)

5

La. Constitution, Article I, Section 17

5

STATUTES
La. R.S. 14:43.1

5

La. R.S. 14:81

5

La. C.Cr.P. 782(A)

5

La. C.Cr. P. 701

6

La. R.S. 15:438

18

La. C.r.P. 774

21

4

STATEMENT OF JURISDICTION
This Court has jurisdiction over this direct appeal pursuant to Article
V, Section 10(A), of the Louisiana Constitution of 1974. The appellant
was convicted on August 30, 2019, of"one count of Sexual Battery of a
child under the age of 13, one count of Indecent Behavior with a juvenile
under the age of 13, and one count of Indecent Behavior with a Juvenile:
On September 12, 2019, he was sentenced to 60 years on count one, with
25 years to be served without benefit of parole, probation or suspension of
sentence, 20 years on count two, with 10 years to be served without benefit
of parole, probation or suspension of sentence, and 7 years on count three.
All sentences were to run concurrent with credit for time served. (Rec. pp.
566-7, 1497-1512).

On September 18, 2019, the motion for appeal was

granted! (Rec. pp. 601-3).

STATEMENT OF THE CASE
Rafael Chinchilla was charged by a bill of information with one
count ot Sexual Battery of a child under the age of 13, in violation of La.
R.S. 14:43.1, one count of Indecent Behavior with a juvenile under the age
of 13, in violation of La. R.S. 14:81, and one count of Indecent Behavior
with a Juvenile, in violation of La. R.S. 14:81. (Rec. p. 82).' On May 8,
2017, probable cause for the arrest was found after a preliminary hearing.
(Rec. pp. 618-48). On July 28, 2017, he entered a plea of not guilty. (Rec.
p. 6).2 A pro se motion to quash was denied on August 16, 2018. (Rec. pp.
27, 155-6, 649-63).

The defense motions to require a unanimous jury

verdict, to declare La. C.Cr.P. 782(A) and La. Const Art. I Sec. 17

1 A preliminary hearing in accordance with Gwen's Law was held on March 13, 2017, The trial
court imposed a zero contact stay away order as a condition of any release on bail. (Rec. pp.
605-15).
2 A Spanish interpreter was provided to Mr. Chinchilla throughout the court proceedings.

5

unconstitutional, and for a speedy trial under La. C.Cr. P. 701 were all
denied on March 15, 2019. (Rec._pp._40..664=84)—Qn.March^25..201.9,.the-.
trial court held a colloquy with the defendant. (Rec. pp. 43, 685-703). On
April 29 and 30, 2019, a six person jury was selected, but a mistrial was
declared on April 30, 2019. (Rec. pp. 49-51, 704-35).3 The defense filed a
motion in limine to exclude the term “victim” at trial which was denied on
August 12, 2019.

(Rec. pp, 65, 745-61). On August 26, 2019, selection

lor a twelve person jury began and on August 30, 2019, Mr. Chinchilla was
found guilty as charged. (Rec. pp. 69-78, 762-1496). On September 12,
2019, Mr. Chinchilla was sentenced to serve 60 years on count one, with 25
years to be served without benefit of parole, probation of suspension of
sentence, 20 years on count two, with 10 years to be served without benefit
of parole, probation of suspension of sentence, and 7 years on count three.
All sentences were to run concunent with credit for time served. (Rec. pp.
566-7, 1497-1512).

On September 18, 2019, the motion for appeal was

granted. (Rec. pp. 601-3).

ASSIGNMENTS OF ERROR
The the trial court erred in accepting a non unanimous jury verdict
on counts two and three in light of the U.S. Supreme Court’s recent
ruling in Ramos.
2.

The evidence was insufficient to support the verdict in all three
counts.

3.

The trial court erred in failing to sustain the objection during rebuttal
closing argument when the prosecutor m^characterized the
emergency room doctor’s testimony and misled the jury.

3 On April 30, 2019, the defense filed a motion to admit evidence which was denied by the trial
court. The defense sought a supervisory writ with this Court which was dismissed with
prejudice after the defense filed a motion to dismiss it as moot since the state had agreed to the
introduction of said evidence. (Rec. pp. 502-12).

6

' 1

ISSUES PRESENTED
Did the trial court err in accepting a non unanimous jury verdict in

1.

light of the U.S. Supreme Court’s recent ruling in Ramos'?
2.

Was the evidence insufficient to support the jury’s verdict in all three
counts?
Did the trial court err in failing to sustain the objection during
rebuttal closing argument when the prosecutor mischaracterized the
emergency room doctor’s testimony and misled the jury?

STATEMENT OF FACTS4
Haile Benitez testified he had three children. C.B. was 15 years old
at the time of trial and had a different mother, Yamilet Perez-Rivero, whom
he met and married in Cuba. C.B. was 9 years old when they moved to the
U.S.. Mr. Benitez testified he met Mr. Chinchilla and they actually lived in
the same house for 8 or 9 months.
finally divorced in 2016.

Mr. Benitez testified he and Yamilet

Mr. Benitez testified that he began to date

another women and C.B. asked several times to come live with them.
February 13, 2017, C.B. disclosed the sexual abuse to Mr. Benitez.

He

testified he got his phone and recorded what C.B. was telling him. After
the disclosure, Mr Chinchilla texted C.B. saying he and her mother got
married. He called Yamilet and told her what C.B. had said. Mr. Benittez
testified he called the family doctor who told him to take C.B. to the
emergency room.

The emergency room doctor recommended C.B. see a

doctor at Children’s Hospital. The doctor at Children’s diagnosed her with
“child psychobias” and recommended counseling. (Rec. pp. 774-813,
829-32).
4 A Spanish translator was provided to Mr. Chinchilla throughout the proceedings and an
additional translator provided for Spanish speaking witnesses.

7

1 l

Lashonda Woodfork testified she was the communications supervisor
for Kenner Police_Department._She.provided.all.the-91.1-cails-in-the-case.(Rec. pp. 834-8). Nancy Weber Clay testified she worked for the Jefferson
Parish 911 Communications Center and processed and provided copies of
the calls to law enforcement and the public upon request.

(Rec. pp.

839-43).
Officer Craig Blair testified he responded to a complaint of sexual
assault by the ER doctor on February 13, 2017, at the Oschner Kenner
Hospital. He testified the complaintant was a 13 year old female accusing
her stepfather, Mr. Chinchilla. Officer Blair testified that when he learned
another incident had occurred in Metairie he contacted the Jefferson Parish
Sheriff’s Office. He was unable to communicate with the mother because
she only spoke Spanish so a bilingual officer was also called as well as
DCFS. A Kenner detective then took over the case. (Rec. pp. 844-59).
Alexis Englade was a crime scent technician with the Kenner Police
Department and she went to the hospital and took pictures of the
complaintant. (Rec. pp. 859-64).
Deputy Brian Knowles testified he was with the Jefferson Parish
Sheriff’s Office and was called to the hospital in response to C.B.’s
allegation of sexual assault.
mother’s friend.

He spoke with C.B., her mother and the

Deputy Knowles also contacted DCFS.

The case was

then handled by Detective Tillman. (Rec. pp. 864-72).
Yanicet Garrido testified she was a store manager at Family Dollar.
She knew Yamilet Perez from coming to the store and was introduced to
her ex-husband, Haile Benitez. They had one daughter together, C.B.

Mr.

Chinchilla was in a relationship with Ms. Perez. Ms. Garrido testified that
C.B. primarily stayed with them, but would visit almost every weekend.
She testified that C.B. often asked to come live with the but she never

8

‘ I

explained why. In February 2017, Haile Benitez was called and asked to
pick C.B. up from school. Ms. Garrido testified she was asking C.B. about
an award she won at school and to see pictures.

Haile asked to see the

. phone and in scrolling through saw a video of C.B. screaming to be left
alone. C.B. disclosed the sexual assault allegation to them and they took
her to the hospital.

On the same day, C.B. received a text front Mr.

Chinchilla saying he and Ms. Perez had gotten married,

Ms. Garrido.

testified that since this allegation C.B. and her mother have not had contact.
(Rec. pp. 874-901).
Dr. Neha Mehta was qualified as an expert in pediatrics and child
sexual abuse.

Dr. Mehta testified that she conducted a physical exant of

C.B. at Children’s Hospital and obtained a medical history via audio
recording.

C.B. had a normal genital and anal examination.

Dr. Mehta

testified the marks on her breast did not have any medical or forensic
significance and were likely due to the fact that her breasts were growing.
Dr. Mehta diagnosed C.B. as having been sexually abused. She was aware
of the sexting also found on C.B.’s phone with another peer-aged male. Dr.
Mehta referred to this as a much more common occurrence in teenagers.
(Rec. pp. 911-81).
Deputy Judd Harris testified he was assigned to the Personal
Violence Unit (hereinafter “PVU”) in the Jefferson Parish Sheriff’s Office
and investigated the allegations made by C.B. against Mr. Chinchilla.
Deputy Harris testified that he referred C.B. to the Child Advocacy Center
(hereinafter “CAC”) for a forensic interview.

He was present for that

interview. Once Dr. Mehta diagnosed C.B. as having been sexually abused
he prepared the arrest warrant for Mr. Chinchilla.

He also got a search

warrant to seize Mr. Chinchilla’s cell phone and C.B.’s cell phone. Deputy
Harris also applied for a search warrant from Instagram, Facebook and

‘ i

Snapchat. All arrest and search warrant applications were granted by the
—Commissioner. ICE Agents originally detained Mr. Chinchilla and he and
Detective Foltz with the Kenner Police Department executed their warrant
and took him tor an interview. Mr. Chinchilla was never wanted by ICE on
any immigration issues, but Deputy Harris notified them that they were
looking for him after the arrest warrant was granted,

Deputy Harris

acknowledged that Mr. Chinchilla voluntarily gave them his phone.

Fie

testified that C.B. did not know any specific dates that the alleged incidents
happened and she only said the first count happened in August 2015.
Deputy Harris admitted that no one corroborated that Mr Chinchilla had
been left alone with C.B. on the date of the alleged incident.

(Rec. pp.

982-1015).
Brittney Bergeron testified she was the forensic interviewer at CAC
and interviewed C.B. Ms. Bergeron testified that she was always alone irt
the room with the complaintant, but she tells them that the interview is
being recorded and that she has an earpiece if anyone watching the
interview has a question or needs clarification. The video of the interview
was played for the jury.

She testified that they do not make or form any

opinions about the validity of any allegations. Ms. Bergeron testified that
C.B. mentioned two incidents where her breasts were sucked and one
incident of kissing. (Rec. pp. 1016-42).
Yamilet Perez-Rivero testified that she believed C.B. when she first
reported, but by the time of trial she no longer supported her or believed
her allegations. She testified that the day C.B. told her was the same day
she wed Mr. Chinchilla. Ms. Perez testified ■ that she began to have
suspicions about her story when the doctor at Ochsner told her she had not
been sexually abused. She testified she really began to doubt her daughter
when C.B. stopped answering her phone calls and when she heard her

10

‘

/

daughter say to someone else that she did not care about her mother. Ms.
Perez testified that her daughter was taken to all the doctors and went
through the whole process but was never diagnosed with being sexually
abused. She testified that her first husband would put Mr. Chinchilla down
using derogatory names such as Indian, Palestine, and Guajido. Ms. Perez
testified that C.B. knew she and Mr. Chinchilla were going to the
courthouse to initiate the marriage and get signatures the day she reported.'1
(Rec. pp. 1043-98).
Cassandra Knight testified she was a supervisor at DCFS. She met
with the mother, Yamilet Perez-Rivero, twice and attended the CAC
interview of C.B. She testified that Ms. Perez supported C.B. and was
cooperative with her investigation. Ms. Knight testified they make
observations only and she determined that this was a valid case and C.B.
was not being coached to make a false claim. She also testified that as a
teenage girl C.B. was prone to make bad decisions, but it did not lessen her
credibility. (Rec. pp. 1112-36).
Peter Foltz testified he was a detective with the Kenner Police
Department. He spoke with with the mother, Yamilet Perez-Rivero, and
monitored the CAC interview of C.B. C.B.’s father, Hailey Benitez was
also present and the two appeared cordial and supportive of their daughter.
C.B. recounted and incident when Mr. Chinchilla put his mouth on her
vagina and another time she showered after an incident and wore a
bathrobe, a word she did not know in english and needed translation. Det.
Foltz prepared the arrest warrant for Mr. Chinchilla. Mr. Chinchilla was
read his rights and gave a statement to Det. Foltz.
played for the jury.

The recording was

Det. Foltz testified that Mr. Chinchilla went by the

5 Ms. Perez testified that in Cuba the marriage process begins with signatures and a second
date is given for the actual marriage. She and Mr. Chinchilla both mistakenly thought their
wedding day was just this first date for signatures and they were to get a second date for the
wedding.

II

nickname Jonathan and texted C.B. using this name. He identified a text
on C.B.‘s phone in Spanish from Jonathan that was translated as “1 can’t
resist any longer . There is a fire in me for us to make love” and a second
text that said, “delete.”

A video was also taken off of C.B.’s phone in

which she is heard saying, “Don’t call me like that anymore Jonathan.
Leave me alone. Shut up.” (Rec. pp. 1137-80).
Detective Solomon Burkfe was qualified as an expert in digital
forensics and mobile device analysis. He retrieved various texts and videos
from Mr. Chinchilla and C.B.'s phones. (Rec. pp. 1217-70).
C.B. testified she was a junior in high school and had been in thq
United States since she was 9 years old. She testified Mr. Chinchilla went
by the nickname Jonathan. C.B. told the jury that when she was 11 years
old her mother was getting paperwork for her taxes and Mr. Chinchilla
came into her bedroom, took off her clothes, and put his penis inside her
vagina one time. She took a shower afterwards and he brought her money
for school and books.

C.B. testified that another time her mother went

walking and Mr. Chinchilla came home early from work. She testified she
was in a robe after taking a shower and he sucked on her breast.

C.B.

testified that the final time was when Mr. Chinchilla picked her up from
school and they had stopped at Raising Cane’s. She went inside and she
locked her bedroom door but Mr. Chinchilla had a key. C.B. told the jury
that Mr. Chinchilla unlocked the door, threw her onto the bed and sucked
on her breasts. She did not tell anyone because Mr. Chinchilla said he paid
all the bills and they would suffer if she told anyone.

C.B. identified a

letter she was going to send to Axel, a boy that she liked in. middle school.
It was dated November 17, 2016.

Mr. Chinchilla found the letter. C.B.

denied making the current allegations against him because he found that
letter. She also identified several Snapchat' and Instagram messages

12

between her and Axel asking for advice.

On cross examination, C.B.

testified that during the. first_incident. ,she_punched. _and_kicked_Mr.
Chinchilla so much that they fell off the twin size bed and were on the floor
when he inserted his penis into her vagina one time.

C.B. did not recall

telling Dr. Mehta that Mr. Chinchilla unlocked her door with a key.

She

also never mentioned in her statement to police that Mr. Chinchilla would
try and kiss her at different times.

C.B. testified she recorded the video

when Mr Chinchilla was downstairs calling her names and she believed it
was proof that he had sexually abused her. She also admitted that some of
her conversations on social media with Axel were if they had sex one day
how they would do it. (Rec. pp. 1279-1337).
Axel Salazar Garcia testified that he and C.B. were friends in middle
school and they often talked on social media and on the phone. He did not
recall the Snapchat messages with C.B. wherein he said he wanted to touch
her vagina, suck on her breasts and “hit it hard.” (Rec. pp. 1338-45).
The defense called Dr. Tessa Hue who was qualified as an expert in
emergency room medicine.

She testified that she examined C.B. oh

February 13, 2017. Dr. Hue testified that C.B. told her she had marks on
her breasts from sexual abuse and showed her the video on her phone.
C.B. also showed her a photo with a red mark near her breast which the
doctor admitted could be caused by clothing. After her examination, Dr.
Hue saw “no marks of bruising, erythema, or marks consistent with teeth
marks.” Dr. Hue reported the incident to the police as required by law, but.
she found nothing in her exam that validated what C.B. had alleged. (Rec.
pp. 1346-76),
Fernando Perez-Rivero testified he was an uncle to C.B. and for
awhile-his sister, Ms. Perez, and her daughter C.B. lived together in Cuba,
Miami and Louisiana.

Fie admitted that Mr. Benitez referred to Mr.

13

Chinchilla as “India” and “Palestine” which are both derogatory terms. Mr.
Perez testified that when Yamilet and C.B. left Cuba Mr. Benitez wouldn’t
sign the papers allowing them to legally go, unless they let him go with
them. He testified he no longer supported C.B. because there has been no
proof to her allegations. (Rec. pp. 1377-1404).
Ivonne Armijo and Marisol Aranguren both testified they knew Mr.
Chinchilla for many years and they met him when he was referred to them
to do some repair work on their house. They both said he as a good worker
and knew him as a family man. (Rec. pp. 1405-15).

SUMMARY OF THE ARGUMENT
The jury convicted Mr. Chinchilla by less than a unanimous verdict
on counts two and three contrary to the U.S. Supreme Court’s recent
decision in Ramos. The jury’s verdict on all three counts was based on
insufficient evidence.

The trial court erred in failing to sustain the.

objection during rebuttal closing argument when the prosecutor
mischaracterized the emergency room doctor’s testimony and misled the
jury.

STANDARD OF REVIEW
The general rule is that appellate courts review trial court rulings
under a deferential standard with regard to factual and other trial
determinations, while legal findings are subject to a de novo standard of
review. State v. Hunt, 09-1589, (La. 12/1/09), 25 So.3d 746, 751. When a
trial court makes findings of fact based on the weight of the testimony and
the credibility of the witnesses, a reviewing court owes those findings great
deference, and may not overturn those findings unless there is no evidence
to support those findings. Id. A "trial judge's ruling [on a fact question],

14

based on conclusions of credibility and weight of the testimony, is entitled
to great deference andjwilJ not be disturbed on appeal unless there is no
evidence to support the ruling." State v. Bourque, 622 So.2d 198, 222 (La.
1993).

ARGUMENT ISSUE ONE: Error Patent!Ramos decision
Mr. Chinchilla was convicted by a non-unanimous jury on two of his
three counts and this Court should review the non-unanimous jury verdict
as an error patent. (Rec. pp. 1493-4). The defense filed a motion to require
a unanimous jury verdict which was denied on March 15, 2019. (Rec. pp.
40, 664-84). The law is clear under the Sixth Amendment, the government
can only sustain a conviction and sentence at hard labor based upon a
unanimous verdict. The vast majority of the Bill of Rights have been fully
incorporated and made applicable to the states through the Fourteenth
Amendment.
The U.S. Supreme Court heard oral argument in Ramos on October
7, 2019.

On April 20, 2020, the United States Supreme Curt ruled in

Ramos v. Louisiana, 2020 U.S. LEXIS 2401, U.S. S. Ct. No. 18-5924 that a
guilty verdict must, as a matter of constitutional law, be premised on a
unanimous vote of the jury.

Therefore, a conviction premised on an

insufficient number of jurors’ votes should readily constitute both a
structural error and an error patent.
When the validity of Louisiana’s non-unanimous six person juries
was called into question, the Louisiana Supreme Court observed:
Although the matter is not free from doubt, we have held without
discussion that under such circumstances we may, from the minute
entry, discover by mere inspection the basis for a defendant's
contention that a non-unanimous jury verdict represents
constitutional error patent on the face of the proceedings. State v.
Bradford, 298 So. 2d 781 (La. 1974); State v. Biagas, 260 La. 69, 255
So.2d77(L,a. 1971).

15

We therefore consider on its merits the contention of the
lmeonstitutionality of a non-unaniraous verdict by a six-person jury.
State v. Wrestle Inc., 360 So. 2d 831 (La. 1978). The Louisiana Supreme'
Court rejected the merits of Wrestle’s contention and endorsed the view of
Professor Lee Hargrave, the Coordinator of Research for the Constitutional
Convention of 1974: “"If 75 percent concurrence (9/12) was enough for a
verdict as detennined in Johnson v. Louisiana, 406 U.S. 356, (92 S. Ct.
1620, 32 L. Ed. 2d 152) (1972), then requiring 83 percent concurrence
(5/6) ought to be within the permissible limits of Johnson." Id. at 838.
Ultimately the U.S. Supreme Court reviewed the merits of the Louisiana
Supreme Court’s error-analysis finding: “[W]e believe that conviction by a
nonunanimous six-member jury in a state criminal trial for a non petty
offense deprives an accused of his constitutional right to trial by jury.”
Burch v. Louisiana, 441 U.S. 130, 134, 99 S. Ct. 1623, 1625 (1979). The
Court upheld the conviction of Petitioner Wrestle, because it was
unanimous, and reversed the conviction of the Petitioner Burch, whose
conviction was not.
The Louisiana courts continue to recognize that the validity of a
verdict - based upon the number of jurors who voted for it - is reviewable .
as error patent. See State v. Arceneaux, 19-60 (La. App. 3 Cir 10/09/19)
(“The defendant is correct in that if the Supreme. Court finds a non­
unanimous jury verdict to be unconstitutional for the types of verdicts
returned in the present case and if the Supreme Court applies such a
holding retroactively to include the jury verdicts returned in the present
case, the verdicts returned in the present case would be improper and
would be considered an error patent.”); State v. Ardison, 52739 ( La. App. 2
Cir 06/26/19), 277 So. 3d 883, 897 (“Under Louisiana law, the requirement
of a unanimous jury conviction specifically applies only to crimes

16

committed after January 1, 2019. The instant crimes were committed in
2017, and thus, the amended unanimous jury requirement is inapplicable to
Ardison's case. Ardison's assertion of an "error patent" is without merit.”);
State v. Aucoin, 500 So. 2d 921, 925 (La. App. 3rd Cir. 1987) (“In our
earlier opinion, State v. Aucoin, 488 So.2d 1336 (La. App. 3rd Cir. 1986),
pursuant to court policy, the record was inspected and we found a patent
error from the polling of the jury; the verdict represented a finding of guilty
with only nine jurors concurring when ten is required. We reversed ,and
remanded the case. The State filed an application for a rehearing alleging
that the polling of the jury actually was a ten to two verdict but there was
an error in transcribing the polling of the jury verdict and requested an
opportunity to correct the transcript.”).
Mr. Chinchilla was convicted by a non-unanimous jury on two of his
three counts, which occurred before 2019. As is consistent with state court
rulings for a six person jury, the matter should now be considered by all
Louisiana state courts as an error patent in light of the U.S. Supreme
Court's ruling in Ramos.

ASSIGNMENT OF ERROR TWO: Insufficient evidence/Post Verdict
•Judgement of Acquittal
In the present case, the evidence was insufficient to prove the elements
of the crimes charged.

La. C.Cr.P. art. 821, paragraph B, presents a

codification of the Jackson v. Virginia, 443 U.S. 307, 99 S.Ct 2781, 61
L.Ed. 2d 560 (1979) standard.
In Jackson v. Virginia, 443 U.S. 307, 99 S.Ct 2781,61 L.Ed. 2d 560 (1979),
the United States Supreme Court set out the standard by which appellate
courts are to review the sufficiency of the evidence in criminal
prosecutions:
. . . the relevant question is whether, after viewing the evidence in a
light most favorable to the prosecution, any rational trier of the fact

17

could have found the essential elements of the crime beyond a
reasonable doubt.
Also see State v. Matthews, 375 So.2d 1165 (La. 1979). In reviewing the
sufficiency of the evidence to support a criminal conviction, the Due
Process Clause of the Fourteenth Amendment to the United States
Constitution requires the court to determine whether the evidence is
minimally sufficient.

A complete reading of the transcript of this trial

shows that the state failed to meet the burden of proof enunciated by the
Supreme Court in Jackson v. Virginia. In State v. Dixon, 620 So.2d 904
(La. App. 1st Cir 1993), the First Circuit explained:
The standard of review for the sufficiency of the evidence to uphold a
conviction is whether or ndt, viewing the evidence in the light most
favoiable to the piosecution, a rational trier of fact could conclude that
the State proved the essential elements of the crime beyond a reasonable
doubt.
The rule regarding circumstantial evidence is set forth in La. R.S. 15:438 as
follows:
. . . assuming every fact to be proved that the evidence tends to prove, in
order to convict, it must exclude every reasonable hypothesis of
innocence.
Ultimately, all the evidence in the record, viewed in a light favorable to
the state, must satisfy the reviewing court that a rational trier of fact could
have found the defendant guilty of the crime for which he was convicted,
beyond a reasonable doubt. State v. Perow, 616 So.2d 1336 (La. App. 3d
Cir. 1993).

The circumstantial evidence rule is a component of this

reasonable doubt standard. On appeal, the issue is whether a rational trier
of fact, viewing the evidence in a light favorable to the state, could find that
all reasonable hypotheses of innocence were excluded.
In oidei foi the State to obtain a conviction, it must prove the elements
of the crime beyond a reasonable doubt. In this case, the entire case rested
on the allegations made by C.B. on the very day her mother married a man

other than her father. There was absolutely no physical evidence in this
case. The ER doctor, Dr. Tessa Hue, who initialIy_examined.C.B. .testified___
she found no evidence to support the allegations made by C.B. that Mr.
Chinchilla had kissed her breasts.
around the breast.

Dr. Hue saw no bruising or redness

She testified any marks she did see could have been

stretch marks from recent growth or marks from a poor fitting bra. Dr. Hue
saw no evidence of bite marks, lacerations, bruising or hickies on C.B.’s
breasts.

The physical examination at Children’s Hospital also found no

physical evidence of abuse, but Dr. Mehta and DCFS found it to be a valid
claim.

Dr. Mehta testified that any marks on C.B.’s breasts had no

“medical or forensic value.” (Rec. pp. 911 -81, 1112-36, 1346-76).
C.B. claimed a video showing her yelling at Mr. Chinchilla for calling
her names was evidence that he had just kissed her breasts, and somehow
this was evidence for the third count. (Rec. pp. 1137-80). She also alleged
Mr. Chinchilla had kissed her breasts once before and that was the entirety
of the evidence presented by the state for the second count.

C.B. also

alleged that sometime in August 2015, the first alleged assault, and one of
the few times Mr. Chinchilla was ever alone with C.B., he entered her
bedroom while her mother was getting some tax documents. C.B. claimed
Mr. Chinchilla forced himself on her and she punched and kicked him so
much they fell off the bed. She testified that Mr. Chinchilla forcibly took
off her clothes and inserted his penis into her vagina one time and then
withdrew and walked away. No one else in the household testified to any
bruising, destroyed property, or torn clothing. C.B.’s testimony was all the
evidence presented in the first count. (Rec. pp. 1279-1337).
By the time of trial, C.B.'s mother, Yamilet Perez-Rivero, no longer
believed her daughter’s allegations. All state witnesses agreed that Ms.
Perez had fully supported and participated in the investigation of her
19

daughter allegations against her new husband.

She brought C.B. to all

.appointments,and.took.the.matter-very-seriousiy.—The-first~and-most-serious
account was alleged to have occurred when Ms. Perez was out acquiring
documents for the IRS in 2015.

In their presentation of evidence to the

jury on this very serious count, the state did not even provide any evidence
from the IRS showing Ms. Perez needed to provide additional
documentation in 2015. Even though she no longer believed her daughter’s
allegations, Ms. Perez had cooperated fully with the police and the state all
along and it can be reasonably assumed she would have provided these
documents to the state and the defense if they existed and she could have
provided even the scantest of corroboration of C.B.’s claims.

(Rec. pp.

1016-42, 1043-98, 1112-36, 1137-80)
Unfortunately, the trial court did not see the flawed proof and lack of
evidence to convict Mr. Chinchilla beyond a reasonable doubt. C.B. was
the only one making any claims and no evidence or corroboration was
gathered beyond that. The state introduced texts messages from Jonathan,
which was Mr. Chinchilla’s nickname and number in C.B.‘s phone, that
showed some improper dialogue, but no evidence or admission of any
crime committed. Likewise, the defense introduced several lewd Instagram
and Snapchat messages between C.B. and her classmate and friend, Axel
Salazar Garcia, which also never proved anything had happened. (Rec. pp.
1217-70, 1279-1337, 1338-45).

Most telling was that Axel was a state

witness in this case and had not been charged with carnal knowledge or any
other crime with C.B. when she was underage based solely on social media
messaging and texts because it simply does not prove anything actually
happened. The jury and the trial court failed to legitimately hold the state
to its burden to prove all of the elements of the crime and to prove them
beyond a reasonable doubt. Any and all reasonable doubts must be decided

20

in favor of Rafael Chinchilla and not the state.

The evidence was

insufficient in this case to support the requisite elements beyond a
reasonable doubt.

ASSIGNMENT OF ERROR THREE: Improper Closing Argument
The prosecutor in rebuttal close was refuting the defense argument
that the first doctor to see C.B. found no evidence of sexual abuse but since
the allegation was made, she had to report it to police as a matter of law.
The state mischaracterized the evidence presented by saying Dr. Hue was
the defense s expert who diagnosed C.B. as having child sexual abuse.
This was misleading to the jury and an overreach by the prosecutor
mischaracterizing the testimony.
defense s objection.

The trial court failed to sustain the

Dr. Hue had to report this as child sexual abuse

because an allegation was made. It was a forgone conclusion mandated by
law before her exam and expertise were ever applied to the case.

Dr.

Mehta the expert in child abuse at Children’s Hospital also found no
physical evidence that had any “medical or forensic value” but based on
other factors in her expertise she found a valid claim was made,

Her

testimony was vastly different from what Dr. Hue found yet had to report
by law.

The prosecutor mischaracterized the testimony of Dr. Hue and

clearly misled the jury. (Rec. pp. 911-81, 1346-76, 1464-6).
La. C.r.P. 774 requires that closing arguments at trial be confined "to
evidence admitted, to the lack of evidence, to conclusions of fact that the
state or defendant may draw therefrom, and to the law applicable to the
case." State v. Smallwood, 09-86, (La. App. 5 Cir. 7/28/09), 20 So.3d 479,
489; State v. Robertson, 08-297 (La. App. 5 Cir. 10/28/08), 995 So.2d 650.
Closing aiguments shall not appeal to prejudice. Id. at 659. A prosecutor
has considerable latitude in making closing arguments. State v. Jackson,
21

§

'

t

04-293, (La. App. 5 Cir. 7/27/04), 880 So.2d 69.

However, prosecutors

may not resort to personal experience— or_tum—thoir——
referendum on crime. Robertson, at 659-60.
The trial judge has broad discretion in controlling the scope of
closing arguments. Robertson at 660. A conviction will not be reversed due
to improper lemarks during closing argument unless the reviewing court is
thoioughly convinced that the remarks influenced the jury and contributed
to the verdict. Id. (citing Jackson, 04-293 at 5-6, 880 So.2d 69 at 73). In
making its determination, the appellate court should give credit to the good
sense and fair-mindedness of the jury that has seen the evidence and heard ,
the argument, and has been instructed that the arguments of counsel are not
evidence. Id.
In addition, assuming the prosecutor's argument was improper,
reversal,is not required when such error was limited and did not show
significant impact on the outcome of the case. State v. Huckabay, 00-1082
(La. App. 4 Cir. 2/6/02), 809 So.2d 1093, 1110; State v. Francis, 95-194
(La. App. 5 Cir. 11/28/95), 665 So.2d 596, 604; State v. Foster, 09-837
(La. App. 5 Cir. 6/29/10), 33 So.3d 733, 741-3.
The tiial court should have stemmed the damage by sustaining the
objection.

(Rec. pp. 1464-6).

Once the jury heard this misleading

comment from the prosecutor, the nearly unavoidable inference made a fair
trial and fair assessment of the evidence unlikely since Mr. Chinchilla was
accused of a sex crime against a juvenile.
The enor was not harmless because the verdict was not solely
unatti ibutable to the error. Louisiana adopted the federal test lor harmless
error enunciated in Chapman v. California, 386 U.S. 18, 87 S. Ct. 824, 17
L. Ed. 2d 705 (1967). The test in Chap man is whether it appears "beyond a
reasonable doubt that the error complained of did not contribute to the

22

verdict obtained. 386 U.S. at 24; 87 S. Ct. at 828. Chapman was refined
.in Sullivan v. Louisiana, 508 U.S. 275, -113 S. Ct. 2078, 124 L. Ed. 2d 182
(1993).

The Sullivan inquiry "is not whether, in a trial that occurred

without the enor, a guilty verdict would surely have been rendered, but
whether the guilty verdict actually rendered in this trial was surely
unattributable to the error.” Id., 113 S. Ct. at 2081.
In the piesent case, the error in not sustaining the objection was not
harmless because it was so prejudicial and depicting Mr. Chinchilla as a
child sex abuser.

The state implied to the jury that since “all” experts

diagnosed sexual abuse they can therefore find Mr. Chinchilla a sex abuser
based on all of these doctor s expertise. Dr. Hue only testified she had to
report and diagnose the claims because a claim was made by a juvenile.
Her investigation showed no evidence of sexual abuse.

Perhaps this was

why the state did not call the first doctor to see C.B. as a witness. The state
tiied to mitigate her testimony after the fact by mischaracterizing it in
rebuttal close, when the defense can no longer correct the mislead.

The

jury’s verdict can not be considered “unattributable” to this error.

CONCLUSION
Wherefoie, the appellant’s convictions and sentences should be
reversed.

23

RESPECTFULLY SUBMITTED:
LOUISIANA APPELLATE PROJECT

_s/Jane L Beebe__
JANE L. BEEBE
Bar Roll No. 23642
P. O. Box 463
Addis, LA 70710
(504)263-8081
CERTIFICATE OF SERVICE
1 hereby certify that 1 have served the foregoing brief upon the
Jefferson Parish District Attorney’s Office, Appeals Division, and upon
Judge E. Adrian Adams, by delivering copies of same to each by hand, mail
or email this 25th day of

June

, 2020.

_$/Jane L. Beebe
JANE L. BEEBE

I
J

ii

24

.#

'>.

!•

APPENDIX - B

# ,
* ;•

IN THE
FIFTH CIRCUIT COURT OF APPEAL
STATE OF LOUISIANA
-n

No. 2020-KA-0060

op?
-r,
WS J--

o

>)
:xj
\n

o

O
O

C.O

STATE OF LOUISIANA, APPELLEE v.
RAFAEL CHINCHILLA, APPELLANT

CRIMINAL PROCEEDING ON APPEAL
FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
THE HONORABLE E. ADRIAN ADAMS, PRESIDING

[Original Brief of the State of Louisiana]

Paul D. Connick, Jr. # 4306
District Attorney
Twenty-Fourth Judicial District
Office of the District Attorney
200 Derbigny Street
Gretna, Louisiana 70053
(504) 368-1020

Thomas J. Butler # 23451
Assistant District Attorney
ChiefofAppeals
Matthew R. Clauss # 31664
Assistant District Attorney
Trial and Appeal Counsel
Counsel ofRecord on Appeal

Counselfor Appellee

Jf

iii

*

l

Table of Contents

Table of Authorities

iv

Statement of Facts

1

Testimony of C.B., the victim

1

The first incident (count 1)

1

The second incident (count 2)

2

The third incident (count 3)

2

Other inappropriate behavior toward the victim

3

Discovery of the abuse

4

Other significant facts

4

Testimony of H.B., victim’s biological father

4

Testimony of Yanicet Garrido, H.B.’s girlfriend

6

Testimony of Doctor Neha Mehta

8

Testimony of Brittney Bergeron

9

Testimony of Y.P.R., victim’s biological mother

10

Testimony of Cassandra Knight

11

Testimony of Deputy Judd Harris

12

Testimony of Detective Peter Folse

14

Testimony of Lashonda Woodfork

17

Testimony of Nancy Weber Clary

17

Testimony of Officer Craig Blair

18

Testimony of CST Alexis Englade

18

Testimony of Deputy Brian Knowles

18

Testimony of Axel Salazer

19

Testimony of Detective Solomon Burke

19

Testimony of Doctor Tessa Hue

20

Testimony of Fernando Perez Rivero

20

Testimony of Ivonne Arimijo

21

Testimony of Marisol Aranguren

21

[ii]

Summary of the Argument

21

Argument---------------------

-2-3

Claim # 1: The Verdicts Rendered are Contrary to Ramos

23

Claim # 2: The Evidence Was Insufficient

24

Claim # 3: Improper Rebuttal Closing Arguments

27

Conclusion

30

Certificate of Service

31

[iii]

«*' ,

Table of Authorities
Cases
Jackson v. Virginia, 443 U.S. 307,319 (1979)

24

Ramos v. Louisiana, — U.S. —, 140 S.Ct. 1390,
206 L.Ed.2d 583 (2020)

23,26

State v. Bridgewater, 823 So.2d 877 (La. 2002)
State v. Clifton, 17-538 (La. App. 5 Cir. 5/23/18); 248 So.3d 691
State v. Davis, 637 So.2d 1012 (La. 1994)

25
24-25
25

State v. Ford, 20-241 (La. 6/3/20); —So.3d—,
2020 WL 3424531

23

State v. Francois, 03-1313 (La. 4/14/04); 874 So.2d 125

25

State v. Harrell, 19-371 (La. App. 5 Cir. 7/8/20); —So.3d-,
2020 WL 3832806

23

State v. Howard, 98-0064 (La. 4/23/99); 751 So.2d 783

28

State v. Jackson, 04-293 (La. App. 5 Cir. 7/27/04); 880 So.2d 69

27

State v. Maxie, 614 So.2d 1318 (La. App. 3 Cir. 1993)

25

State v. Rivas, 19-378 (La. App. 5 Cir. 5/21/20); —So.3d—,
2020 WL 2569820

23

State v. Smith, 600 So.2d 1319,1324 (La. 1992)

24

State v. Sosa, 921 So.2d 94 (La. App. 5 Cir. 2006)

25

State v. Williams, 768 So.2d 728 (La. App. 2 Cir. 2000)

25

Constitutional Provisions
La. Const. Art. I

23

Statutory Provisions
LSA-C.Cr.P. art 771

29

LSA-C.Cr.P. art 774

27

LSA-C.Cr.P. art 782

23

LSA-R.S. 14:43.1

26

LSA-R.S. 15:438

24

[iv]

IN THE
FIFTH CIRCUIT COURT OF APPEAL
STATE OF LOUISIANA

No. 2020-KA-0060

STATE OF LOUISIANA, APPELLEE v.
RAFAEL CHINCHILLA, APPELLANT
CRIMINAL PROCEEDING ON APPEAL
FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
THE HONORABLE E. ADRIAN ADAMS, PRESIDING

[Original Brief of the State of Louisiana]

$

Statement of Facts
1. Testimony of the victim, C.B.
1.1 The First Incident (Court 1). C.B. testified that, when she
was eleven years old, her mother left her and her younger brother home
alone with Appellant while she went out to obtain paperwork needed to
complete her taxes (R. at 1280:29-32,1281:20-24). Appellant and her
brother were in Appellant’s room; C.B. was in her bedroom asleep. (R. at
1280:32-81:1.) She woke up to Appellant entering her room; confused,
she asked him to leave. (R. at 1281:2-3.) He ignored her, and C.B. stated
Mr. Appellant climbed into bed with her, got on top of her, and began to
remove her clothes. (R. at 1281:6-8.) Screaming, she begged for him to
stop — but he persisted. (R. at 1281:7-8.) He removed her underwear
and forced his penis inside C.B. ’s vagina (R. at 1281:9,1281:25-1282:1)
while C.B. pleaded for him to stop (R. at 1281:9-10). “After he was
done,” Appellant returned to his bedroom, and C.B. ran to her

[1]

bathroom. (R. at 1281:11-12.) She felt “disgusting” and immediately
—tooka-showe-rr(128in2=I3:)-CHincHillareturnedto'C:B?s"roo,mand-----offered her money — claiming it was to help her pay for school books.
(R. at 1281:14-15.)
1.2 The Second Incident (Count 2). C.B. testified that later that
Same year (R. at 1282:25-26) her mother left her home by herself while
her mother went out to exercise (R. at 1282:12-15.) C.B. took a shower,
watched television, and enjoyed time by herself in her room. (R. at
1282.15-16.) While C.B.’s mother was still away, Appellant unexpectedly
returned home from work and came into C.B.’s bedroom. (R. at 1282:1618.) Only wearing a bathrobe, C.B. asked him to leave; instead, he
approached her, removed her bathrobe, and began to suck on her breasts.
(R. at 1282:20-21,1283:10-11.) She recollected that Appellant’s actions
left purple and reddish marks on both her breasts. (R. at 1283:2-11.)
1.3 The third incident (Count 3). C.B. also testified to a third
major incident concerning Appellant (R. at 1284:8-14) which occurred
when she was approximately thirteen years old (R. 1288:7-9). She stated
that her mother unexpectedly had to go to the Northshore one afternoon,
and Appellant picked her up from school in her mother’s place. (R. at
1284:17-19.) C.B. knew no one else would be home, and was reluctant to
be alone with Appellant. (R. at 1284:21-23) (“[H]e was taking me to the
house and I took my time like while I was getting out of the car, I didn’t
want to be home alone with him ... [bjecause I know he would try to do
something. ”) C.B. went to her room and locked the door — but
Appellant had a key. (R. at 1284:27-28.) He unlocked her door, came
into C.B. ’s room, threw her on the bed, exposed her breasts, and sucked
on them again. (R. at 1284:31-85:1.) When he finished, Appellant
stepped out of C.B. ’s bedroom, and C.B. grabbed her cellphone to
document what he had done. (See R. at 1287:1-4.) As before, C.B.
recalled Appellant’s actions had left “marking” on her breasts, and she

[2]

took a picture of it. (R. at 1287:2-6.) C.B. recalled that shortly after this
incident, while they were still alone, Appellant began “telling me stuff...
like he was calling me names ....” (R. at 1287:14-15.) She shouted back,
telling him to leave her alone, and secretly used her phone to video
record their interaction. (R. at 1287:14-23.) Her mother returned home
later that afternoon, after the incident, and she, Appellant, and C.B.’s
younger brother left together; C.B. stayed home to avoid being around
Appellant. (R. 1286:14-31.) C.B. recalled exchanging social media
messages with her friend Axel later that same day in which she, alluding
to the abuse, confided that she “had something really important to tell
my family that could change my whole life. ” (R. at 1292:19-21.) C.B.
testified that this final incident occurred on February 3 (R. at 1307:18-19)
of 2017.
1.4 Other inappropriate behavior toward the victim. C.B.
testified that Appellant frequently sent her text messages expressing his
romantic interest in her or threatening to harm her. {See R. at 1283:1221) ( [T]he messages would be like, Oh, I love you. If I see you with
anyone, I’m going to kill you.”) She attempted to save Appellants
messages by taking screenshots of them and hiding them in the “notes”
application on her phone; some she was able to preserve, but others she
was forced to delete because Appellant repeatedly confiscated her ph one
and inspected its contents. (R. at 1283:22-31.) C.B. also testified
Appellant recurrently attempted to kiss her and engage in rough “play,”
which included striking her. (R. at 1283:32-84:7) (“[H]e would try to
kiss me, he would play rough with me like hit me or stuff like
that... . [W]hile my mom wasn’t looking, he would try to kiss me, he
would bite me.”) C.B. said Appellant threatened to kill her if she ever
disclosed what he had done to her (R. at 1288:13-14) and wamed.her that
her mother and brother would suffer if he ever stopped paying their bills
(R. at 1287:27-88:1).

[3]

1.5 Discovery of the Abuse. One afternoon, C.B. ’s father picked
-her-up-fromschool,although her-mother was scheduled to do so..(R..at—
1307:9-11.) Later that day, C.B. attempted to show her father pictures of
a school event she had won which she had on her phone. (R. at 1307:1113.) Her father took the phone from her hand to look at the pictures, and
began swiping through the pictures on her phone; in doing so, he
discovered the video C.B. had recorded of her interaction with Appellant
on the day of the last incident. (R. at 1307:14-19.) C.B.’s father asked her
what the video was, and she began to cry (R. at 1307:22-23) and.finally
disclosed her abuse at Appellant’s hands (R. at 1307:29-30). After her
disclosure to her father, C.B. recalled she received a text message from
Appellant informing her that he had just married C.B. ’s mother — a fact
C.B. testified she had no prior knowledge. (R. at 1308:17-18,24-26) (“I
knew that my mom wanted to get married to him, but I didn’t think it
was going to happen that day or anytime soon.”)
1.6 Other Significant Facts. C.B. testified that, at the time of the
abuse, she primarily lived with her mother and Appellant; after the abuse
started, C.B. testified she had asked “many times” to live with her father
instead, so she could escape Appellant’s abusive behavior. (R. at 1309:612.) When her father asked why C.B. testified she did not tell him of the
abuse because she was scared of what might happen to her, her mother,
and her younger brother. (R. at 1309:13-20.)
2. Testimony of H.B., the victim’s biological father. He stated
that C.B. was his biological daughter, that she was fifteen years old and a
junior at Bonnabel High School at the time of trial. (R. at 775:14-25.)
H B. testified he was born in Cuba (R. at 774:5-6) where he met (R. at
776:1-5) and later married, Y.P.R., C.B.’s mother (R. at 776:12-13). After
C.B. was-born, H-.B. and Y.P.R.-separated (R. at 776:19-28) but both
remained in C.B. ’s life (R. at 776:29-32). Y.P.R. ’s father lived in the

[4]

United States (R. at 777:6-12) and, when C.B. was nine years old (R. at
778:3-5) he fell ill (R. at 777:13-15). As a result, Y.P.R. and C.B . were
offered the opportunity to emigrate to the United States (R. at 777:1618); fearing he may never see his daughter again (R. at 777:25-27) H.B.
joined them (R. at 777:31-78:2). H.B., Y.P.R., and C.B. stayed together
briefly in Miami, and then Y.P.R. and C.B. moved to Louisiana — and
H.B. joined them several months later. (R. at 778:6-27.) They all shared
an apartment briefly (R. at 779:2-14) until H.B. got his own apartment
(R. at 779:15-18). C.B. primarily stayed with Y.P.R. but stayed with H.B.
three to four times a month. (R. at 779:29-32.) H.B. and Y.P.R. finalized
their divorce in November of 2016. (R. at 780:17-18). During this time,
H.B. had met and begun dating Yanicet Garrito. (R. at 780:28-81:2) —
who ultimately moved in with him (R. at 781:31-82:2). Corroborating
C.B., H.B. testified C.B. repeatedly asked to come stay with H.B. and his
girlfriend. (R. at 783:29-84:5.) Concerned, he asked her why, but she
would only state that she did not want to be around Appellant. (R. at
803:25-05:13 H.B. testified he learned of the abuse on February 13,
2017. (R. at 784:6-10.) That day, he stated that C.B.’s mother, Y.P.R.,
called him and asked him to pick C.B. up from school, saying only that
“there was a problem.” (R. at 784:13-23.) He picked C.B. up from
school and brought her to his home to spend time with him and his
girlfriend, Yanicet. (R. at 784:28-31.) When they arrived, he recalled that
that C.B. began showing Yanicet photos on her phone from a party she
had attended at school. (R. 784:31-85:2.) Playfully (R. at 785:20-23) he
took C.B.’s phone from her hand and started swiping through the photos
on her phone and, in doing so, discovered a video in which he recalled
C.B. begging to be left alone (R. at 785:3-8) - that is, the video C.B. had
recorded after the last incident of abuse by Appellant (R. at 1287:14-23).
He asked what the video was, and C.B., crying, disclosed Appellant had
sexually abused her. (R. at 785:8-10.) Instinctively, H.B. asked C.B. to
[S]

repeat what she had said and partially recorded her disclosure on his
"phone. (R. at 786:25-28.) He recalled that, shortly after C.B.’s
disclosure, C.B. received a text message from Appellant in which he
advised C.B. that he had just been married. (R. at 787:16-23.) Like C.B.,
H.B. testified that this text message was the first he learned that
Appellant and C.B.’s mother were getting married that day; he was clear
that C.B.’s mother had not told him anything about that when she called
earlier in the day. (R. at 787:27-29.) After C.B.’s disclosure, H.B. called
her mother, Y.P.R., and, without telling her what C.B. had said, asked
her to come to his house — and advised her of C.B.’s disclosures when
she arrived. (R. at 790:16-22.) H.B. and Y.P.R. called C.B.’s family
doctors, and they advised H.B. and Y.P.R. to take C.B. to the emergency
room (R. at 791:1-7) — which they did (R. at 791:8-9). After C.B . was
seen by the emergency room physician, the hospital contacted the police
(R. at 791:19-22) and recommended C.B. be examined by a child sexual
abuse expert at Children’s Hospital (R. at 5-7) and C.B.’s family doctors
made the necessary referral (R. at 792:8-10). The following day, H.B.
and Y.P.R. took C.B. to Children’s Hospital for an examination and,
afterward, the doctor who conducted that examination explained that she
had diagnosed C.B. (R. at 793:9-11) and recommended she begin
counseling to help her cope with the emotional pain she was experiencing
because of the abuse she had experienced at the hands of Appellant (R. at
793.18-23). The doctor at Children’s Hospital also recommended C.B.
receive a forensic interview at the Children’s Advocacy Center. (R. at
794:3-5.) Later, he recalled that a child protection investigator
conducted an investigation into C.B.’s disclosures and concluded that
C.B. ’s disclosures were valid. (R. at 794:23-95:8.)
3. Testimony of Yanicet Garrido, H.B.’s girlfriend. Ms.
Garndo testified she met C.B. ’s and began dating C.B. ’s father after he

[6]

moved to Louisiana. (R. at 875:32-76:9.) Eventually, she moved in with
_C.B..s.father-andrat-that-timersheconfirmede:Brwas'primarily living"
with her mother and Appellant but would frequently visit H.B. at their
home. (R. at 876:25-77:4.) Like H.B., Ms. Garrido also recalled that

on

multiple occasions — probably more than four times (R. at 898:2-7) C.B. asked to come live full time with H.B. and her at H.B. ’s home —
which concerned both H.B. and her. (R. at 877:12-78:1.) On the date of
C.B.’s disclosures, she confirmed that C.B.’s mother contacted H.B.
asking him to pick C.B. up from school. (R. at 878:2-12.) She also
confirmed that C.B. ’s mother did not explain why she needed H.B. ’s
assistance. (R. at 878:17-20.) Ms. Garrido testified that, when H.B. and
C.B. arrived home after school, C.B. began to show Ms. Garrido pictures
on her phone of a party C.B. had attended at school. (R. at 878:30-79:2.)
She corroborated C.B. and H.B. ’s testimony that H.B. at one point
playfully took the phone away from C.B. and began swiping through the
photos and video on C.B. ’s phone. (R. at 879:2-13.) Ms. Garrido stated
that, when H.B. was going through C.B.’s pictures, he discovered a video
on C.B. ’s phone in which C.B. could be heard

screaming and asking to be
left alone (R. at 879:27-30) in obvious emotional pain (R. at 880:5-7).
She testified that she also saw and heard the video

on C.B.’s phone and
distinctly recognized C.B. ’s and Appellant’s voices on that video (R. at
895.17-28, 900:4-15). To her ear, it sounded as though C.B. felt she was
m danger (R. at 896:7-12) and that she was afraid of Appellant (R. at
900:11-17). She testified she could tell something was seriously wrong.
(R. at 901:4-8.) When H.B. asked C.B. about the video, Ms. Garrido
confirmed C.B. disclosed having been sex

ually abused by Appellant. (R.
at 880:8-11.) Ms. Garrido also recalled that, after the disclos
ure, C.B.
received a text message from Appellant advising C.B. that Appellant had
just gotten married - information neither she, C.B., nor H.B. knew
before that text message. (R. at 880:18

[7]

-881:8.) Ms. Garrido also

corroborated the family’s additional steps after C.B.’s disclosures: the
■calf to G.B. ’s mother(Rrat 881:9-14) the call to C.B.’s family doctors (R.
at 882:4-7) the trip to the Oschner Kenner emergency room (R. at
882:13-18) the call by C.B.’s treating physician at the hospital to the
police (R. at 882:19-24) the recommendation by the doctor at Oshner
that C.B. be examined at Children’s Hospital (R. at 882:31-83:2)
4. Testimony of Doctor Neha Mehta. Dr. Mehta is the Medical
Director of the Audrey Hepburn Care Center at Children’s Hospital (R.
at 911:27-12:2) and testified as an expert in general pediatrics as well as
child sexual abuse pediatrics (R. at 919:29-20:10). She testified that child
sexual abuse is surprisingly common, with some research suggesting that
as many one out of every four children experiences some form of sexual
abuse before adulthood. (R. at 920:12-23.) She described in detail the
guidelines she uses in conducting a child sexual abuse examination (R. at
921:10-925:2) and explained that, typically, there are no physical findings
diagnostic of abuse during such examinations (R. at 925:3-26:26) and
why (R. at 926:27-928:21). Dr. Mehta testified that she conducted a
child sexual abuse examination on C.B. (R. at 928:25-29.) During that
examination, Dr. Mehta obtained an audio recorded medical history fr om
C.B. (R. at 930:7-20) in which C.B. described her abuse at the hands of
Appellant, and which was consistent with C.B.’s trial testimony (see
State’s Trial Ex. 30). Dr. Mehta testified that delays in the disclosure of
child sexual abuse, such as C.B.’s in this case, were extremely common.
(R. at 939:23-41:10.) She also testified that the close familial relationship
between C.B. and Appellant before and after the abuse disclosed by C.B.
was typical in child sexual abuse cases (R. at 944:26-945:17) as was the
location of the abuse in C.B.’s case, i.e., the family home (R at 945:1828). Although given the nature of the abuse in C.B.’s case, Dr. Mehta did
not expect to find any physical evidence in this case, she performed a

[8]

physical examination of C.B. (R. at 945:29-46:16.) And, as expected,
-C.B.-hadanormalgenitaland-anal examination—although5-as described
by C.B., Dr. Mehta did note faint, pinkish marks on both of C.B.’s
breasts which Dr. Mehta suspected were stretch marks. (R. at 946:1728.) Dr. Mehta further testified that in her experience it was not
uncommon for children who had been victims of child sexual abuse to
believe that their sexual abuse was the cause for normal physical changes
in their bodies (such as stretch marks). (R. at 946:29-47:11.) After her
examination of C.B., Dr. Mehta testified she diagnosed C.B. with “child
sexual abuse.” (R. at 947:23-27.) In connection with that diagnosis, Dr.
Mehta testified that research in this area has proven that false reports by
children of child sexual abuse are extremely rare. (R. at 948:4-21.) In
particular, she discussed one large study of over seven thousand
suspected child sexual abuse cases which found that only 0.1 percent of
all reports by children involving sexual abuse was ever found to be false.
(R. at 948:22-949:1.) In light of her diagnosis in this case, Dr. Mehta
testified she recommended safety planning, to ensure C.B. would not
have any further unsupervised interaction with Appellant (R. at 949:1013) counseling for C.B. (R. at 949:13-17) as well as a forensic interview of
C.B. (R. at 949:29-32). Dr. Mehta also testified that it is not uncommon
in cases involving child sexual abuse for one or more of a victim’s parents
to shift from supporting to not supporting the victim during the life of a
case — and, according to research, actually occurs in roughly half of
cases. (R. at 950:12-51:29.)
5. Testimony of Brittney Bergeron, CAC forensic interviewer.
Ms. Bergeron testified that, at the time of C.B.’s disclosures, she was
em ployed as a forensic interviewer by the Jefferson Parish Children’s
Advocacy Center and specialized in conducting fact-finding interviews of
children who had disclosed child sexual abuse, physical abuse, or who

[9]

may have witnessed violent crimes. (R. at 1017:13-25.) She conducted a
■forensic-interview-with-GrB.-in-this case whichwasaudio and-video----recorded. (R. at 1030:1-27.) During Ms. Bergeron’s testimony, that
interview was published to the jury (R. at 1034:22-28) was consistent
with C.B.’s trial testimony (seeState’s Trial Ex. 43) and touched on all
three incidents alleged by C.B. (R. at 1040:11-42:3).
6. Testimony of Y.P.R., mother of the victim. Y.P.R. testified
that, when C.B. first disclosed to her that Appellant had sexually abused
her, she immediately and completely believed C.B. and supported her in
her allegations (R. at 1045:18-22.) However, she testified that she no
longer was supporting C.B. (R. at 1045:23-25.) She testified that on the
day C.B. disclosed the abuse to her, she married the Appellant. (R. at
1047:31-1048:2.) However, she further testified that neither she (R. at
1054:20-22,1058:3-7) Appellant (R. at 1054:23-24,1058:8-9) nor C.B.
(R. at 1058:10-12) knew that she and Appellant would be finally married
that day (R. at 1058:3-14). She testified that in Cuba, her home country,
a wedding consists of two ceremonies — one in which the bride and
groom state their willingness and intention to marry, and a second, later
ceremony in which the bride and groom are actually married. (R. at
1048:13-18,1053:27-54:12.) She claimed that on the day C.B. disclosed
the abuse, she was under the impression that, as in her home country,
she was attending a preliminary ceremony, and that a later wedding
would follow. (R. at 1048:18-21, 27-30.) She further claimed that she
and Appellant had obtained their license to marry a week to fifteen days
before the date C.B. disclosed the abuse. (R. at 1049:3-11.) But that was
untrue; when shown a copy of her marriage certificate, she was forced to
admit that she and Appellant received their license to marry on the same
-day C.B. disclosed the abuse in this case — and, in fact, just thirty-six
minutes before their wedding ceremony. (R. at 1051:31-53:6.) The

[10]

unex pected nature of her and Appellant’s wedding was confirmed by
pictures of the ceremony — which showed Appellant wearing a hat, a
regular work shirt, and a pair of jeans. (R. at 1059:15-23.) As Y.P.R.
stated, “I thought that what we were doing was the first signature in this
situation, and I wasn’t — we were not dressed up like wore white or
anything like that.” (R. at 1048:18-21.) Although she claimed it had
nothing to do with her decision to stop supporting C.B. in her allegations
against Appellant (R. at 1064:15-20) Y.P.R. testified, at length, about the
personal hardships she had suffered after C.B. had disclosed the abuse,
and Appellant was arrested; she said Appellant was the “breadwinner of
the house” and that he paid all of the bills (R. at 1063:25-26.) After his
arrest, she testified she lost her apartment (R. at 1063:13-15) lost her car
(R. at 1063:16-17) and that she “quickly” had to start working (R. at
1063:18-19). She testified she was “homeless” after C.B.’s disclosure
and Appellant’s arrest. (R. at 1063:6-11.) She claimed that Dr. Mehta at
Children’s Hospital never diagnosed C.B. with child sexual abuse (R. at
1073:2-15,1074:20-23) — testimony which was contradicted by Dr.
Mehta’s and which Y.P.R. herself later contradicted (R. at 1087:21-32)
— and that this is what, primarily, first caused her to suspect that C.B.
was lying (R. at 1071:28-72:11, R. at 1087:10-20) Suspicion which,
Y.P.R. claimed, crystalized when C.B. disrespected her and expressed a
lack of care or concern for Y.P.R. (R. at 1072:12-73:1.) She also claimed
that C.B.’s father, H.B., had used several derogatory names for
Appellant. (R. at 1083:1-28)
7. Testimony of Cassandra Knight. Ms. Knight testified she was
a supervisor for the Louisiana Department of Children and Family
Services. (R. at 1113:5-8.) She was assigned to investigate C.B.’s
disclosures of in-home sexual abuse. (R. at 1117:10-24.) She attended the
forensic interview with C.B. (R. at 1118:10-12) personally interviewed

[11]

1

C.B. (R. at 1119:12-18) personally interviewed Y.P.R., C.B.’s mother (R.
at 1118:7-9) and personally interviewed H.B., C.B.’s father (R. at
1124:21-24). In particular, Ms. Knight testified that, throughout her
interviews with the family members, she did not notice any
circumstances suggesting that C.B.’s disclosures had been falsified or
were the result of coaching by either parent or anyone else. (R. at
1120:14-16.) She recalled that, contrary to Y.P.R.’s testimony at trial,
during her interview with the mother, Y.P.R. had stated that her
relationship with H.B. was “good,” “healthy,” and that there were no
problems during their marriage and amicable divorce. (R. at 1122:2223:1.) In particular, she recalled that Y.P.R. confirmed that H.B. did pay
$250 each month in child support — contrary to Y.P.R.’s testimony at
trial. (R. at 1124:16-20.) Ms. Knight also testified that H.B. had never
been especially pushy or inappropriate during her investigation. (R. at
1125:2-9.) After her investigation, Ms. Knight testified that the
Department of Children and Family Services closed the case as a
validated finding of in-home child sexual abuse. (R. at 1118:15-22.)
8. Testimony of Deputy Judd Harris. Deputy Harris testified
that, at the time of C.B.’s disclosures, he was a detective in the Personal
Violence Unit of the Jefferson Parish Sherriff s Office (R. at 983:18-20)
and was assigned as the responding detective for the Sherriff’s Office in
this matter (R. at 987:17-22). He received notification of the incident
from Deputy Knowles and coordinated his investigation with Detective
Peter Folse, the lead detective assigned to investigate C.B.’s disclosures
for the Kenner Police Department. (R. at 987:23-88:18.) Following her
disclosures, Detective Folse made arrangements for C.B. to receive a
forensic interview at the Children’s Advocacy Center, which Deputy
Harris attended. (R. at 988:7-31, 989:27-30.) Deputy Harris also
obtained copies of C.B.’s medical records concerning Dr. Mehta’s child

[12]

sexual abuse examination of C.B. (R. at 1008:19-22.) In light of C.B. ’s
disclosures to the road deputies, during the forensic interview at the
Children’s Advocacy Center, as well as Dr. Mehta’s diagnosis of child
sexual abuse following C.B.’s examination at the Audrey Hepburn Care
Center at Children’s Hospital, Deputy Harris obtained an arrest warrant
for Appellant. (R. at 990:20-25.) Deputy Harris forwarded that warrant
to the United States Immigration and Customs Enforcement Agency
(ICE), and requested their assistance in locating Appellant. (R. at 992:817.) He later received notification from ICE that Appellant had been
located and taken into custody on the warrant he had obtained (R. at
992:15-17) and requested that Appellant be transported to the Jefferson
Parish Sheriff’s Office detective bureau for purposes of an interview (R.
at 992:18-22). Before any questioning, Deputy Harris advised Appellant
of his rights using a standard Jefferson Parish Sherriff’s Office advice of
rights form (R. at 23-32) which explained Appellant’s rights in both the
English and Spanish language (R. at 993:1-3). Deputy Harris did not
offer Appellant anything of value in exchange for Appellant making a
statement and neither threatened nor coerced Appellant into making a
statement. (R. at 994:12-22.) Following this advice of rights, Deputy
Harris participated in an audio and video recorded interview with
Appellant concerning C.B.’s disclosures. (R. at 994:23-25.) Of particular
note, Deputy Harris recalled an exchange with Appellant during that
interview wherein Appellant suggested that Y.P.R., C.B.’s mother,
would fully exculpate him and asked Deputy Harris and Detective Folse
to call her. (R. at 1008:2-7.) When he and Detective Folse called Y.P.R.,
as Appellant requested, Y.P.R. “said she didn’t know what he
[Appellant] was talking about.” (R. at 1008:8-11.) In connection with
Appellant’s arrest, Deputy. Harris seized Appellant’s cell phone (R. at
994:26-30) obtained a search warrant for it (R. at 996:4-8) and
submitted it to the Jefferson Parish Crime Laboratory for analysis (R. at
[13]

1 »•

997:6-10). He also obtained a search warrant for C.B.’s phone (R. at
997:11-14) and likewise submitted it to the crime laboratory for forensic
download (R. at 998:4-6). In light of C.B. and Axel’s indications that
they had communicated about the abuse in question via Snapchat and
Instagram, Deputy Harris also obtained search warrants for C.B.’s chat
records from Snapchat (R. at 998:7-28) and Facebook, Inc., the parent
company for Instagram (R. at 1000:14-19) — and later received records
from both companies (R. at 999:7-10,1001:10-17,1002:17-20).
9. Testimony of Detective Peter Folse. Detective Folse testified
he is a criminal investigator employed by the Kenner Police Department
in its criminal investigations division. (R. at 1137:12-18.) He was the lead
detective assigned to investigate this case for the Kenner Police
department. (R. at 1141:14-18.) He had handled numerous child sexual
abuse cases both before (R. at 1138:4-7) and after (R. at 1138:8-10)
C.B.’s disclosures. Detective Folse testified that, in his experience, child
sexual abuse allegations are very common. (R. at 1140:5-8.) Similar to
C.B.’s case, he stated that delay between abuse occurring and its
disclosure was “very common” (R. at 1140:9-14) that victims often
exhibit sexualized behaviors (such as sending sexually suggestive
messages (R. at 1140:15-20) that it is impossible to simply look at an
accused and know that they sexually abuse children (R. at 1140:21-25)
that it is impossible to simply look at a child and know that they had been
abused (R. 1140:26-30) that victims disclose abuse in varied Ways
(1140:31-41:4) and that it is not uncommon for friends and family to have
no idea that sexual abuse is occurring (R. at 1141:5-13).
Detective Folse testified that, after his supervisor assigned the
case to him for investigation, he reviewed Officer Blair’s report,
contacted then Detective Harris with the Sherriff’s Office, and made
arrangements with the Jefferson Parish Children’s Advocacy Center for

[14]

C.B. to receive a forensic interview. (R. at 1141:14-31.) Detective Folse
was present for that interview and observed it from a separate room. (R.
at 1143:3-8.) He testified that nothing about C.B.’s interview — her
appearance, her demeanor, her presentation, the way she behaved — led
him to suspect C.B. was being untruthful. (R. at 1143:12-18.) Mirroring
Dr. Mehta’s testimony, Detective Folse testified that that location where
C.B. disclosed the abuse had occurred was typical for child sexual abuse
cases (R. at 1143:19-23.) He noted that C.B.’s description of the abuse
during her forensic interview was both detailed and in her own words.
(R. at 1143:28-44:1.) Detective Folse also noted that the interview was
non-leading in format (R. at 1144:2-4) and that C.B. included sensory
details in her description of the abuse (R. at 1144:5-8). In particular, he
noted that C.B.’s use of the phrase “stomach-to-stomach” to describe
the missionary position and “put his mouth down there” to describe oral
sex appeared to be age-appropriate. (R. at 1144:9-32.) Detective Folse
also noted that C.B.'s description of the abuse included idiosyncratic
detail, namely C.B.’s inability to recall the English word for “bathrobe”
— the garment she stated she was wearing during the second incident of
sexual abuse she described. (R. at 1145:1-20.) On the whole, Detective
Folse noted that C.B.'s description of the abuse was “plausible,
physically possible, and realistic,” appropriately consistent with other
disclosures, and was not so verbatim or rote as to suggest having been
rehearsed or memorized. (R. at 1145:21-31.)
Following C.B.’s disclosures during the forensic interview,
Detective Folse obtained a warrant for Appellant’s arrest in connection
with the offense she described as occurring in Kenner. (R. at 1146:17-23.)
Appellant was taken into custody, transported to the Sherriff’s Office
Detective Bureau, and advised of his Miranda rights in both English and
Spanish. (R. at 1148:4-31.) Similar to Deputy Harris, Detective Folse
testified that Appellant was not threatened, coerced, or offered anything
[15]

of value in connection with his making statements concerning the
investigatioTrm this case. (R. at 1149:1-16.) Detective Folse testified that
he participated in an audio and video recorded interview with Appellant,
and identified a recording of that interview — which was played for the
jury. (R. at 1149:12-51:30.)
During that interview, Appellant did not deny that there would be
text messages on C.B.’s phone which were sent from his phone — and
saved under his nickname “Jonathan.” (R. at 1156:3-9,1157:6-10,
State’s Trial Ex. 74.) And, indeed, Detective Folse testified that, during
the investigation, Kenner Police and the Sherriff’s Office located some of
those text messages on C.B.’s phone. (R. at 1157:11-21.) Those text
messages were shown to the jury and translated from Spanish into
English. The first message was from Appellant to C.B. and stated: “I
can’t resist any longer. There is a fire in me for us to make love. Delete.”
(R. at 1160:10-12.) The second message — corroborating C.B., H.B., and
Yanicet’s testimony — stated: “Hello, [C.B.] I got married. I don’t — I
don’t want — I don’t want for us to irrespect one another any longer.”
(R. at 1165:32-66:2.)
Detective Folse also recalled that, during C.B.’s disclosures, she
stated that she delayed her disclosure of the abuse because Appellant
warned her that her mother wouldn’t have money anymore and would be
out on the street if she told anyone what Appellant had done. (R. at
1161:28-62:2.) Detective Flose testified that this paralleled (and was
corroborated by) certain claims Appellant made during his interview in
which Appellant repeatedly stated that, if he was arrested and went to
jail, no one would be able to pay the bills and that his family would not be
cared for. (R. at 1162:3-14.)
Detective Folse also recalled that during her disclosures, C.B.
stated that the first incident of abuse by Appellant occurred when her
mother, Y.P.R., left her and her brother home alone with Appellant when
[16]

she went to get paperwork for her taxes. (R. at 1162:15-23.) During his
interview with Appellant, Detective Folse testified that Appellant
independently, and without any prompting for investigators, verified that
he had been home alone with C.B. during this occasion — thereby
further corroborating C.B.’s account during her disclosures. (R. at
1162:15-32.)
Detective Folse testified that the Kenner Police Department and
the Sherriff’s Office had obtained a video surveillance recording from the
outside of C.B. and Appellant’s home corresponding to the date of the
last incident of abuse C.B. disclosed. (R. at 1169:10-15.) That
surveillance was identified by Detective Folse (R. at 1171:3-6) played for
the jury (R. at 1172:5-19) and corroborated C.B.’s account for the events
leading up to and following the last incident of abuse by Appellant (R. at
1172:21-76:12).
10. Testimony of Sergeant Lashonda Woodfork. Sgt. Woodfork
testified she is a supervisor with the Kenner Police Department’s
communications section. (R. at 834:12-17.) She identified an audio
rec ording of a phone call placed by the emergency room where C.B . was
initially examined reporting C.B.’s disclosures. (See R. at 836:10-37:22,
838:10-21, State Trial Ex. 12,13.)
11. Testimony of Nancy Weber Clary. Ms. Weber testified she
works for the Jefferson Parish Sheriff’s Office 911 Communication
Center. (R. at 839:23-26.) She identified an audio-recorded telephone
call between the Kenner Police Department dispatcher and the Jefferson
Parish Sheriff’s Office 911 Center requesting Sheriff’s Deputies respond
to the emergency room where C.B. was examined because two of the
incidents she reported occurred in Metairie, not Kenner. (See R. at
840:29-41:30, State Trial Ex. 14,15.)

[17]

12. Testimony of Officer Craig Blair. Officer Blair testified he is
a patrol officer employed by the Kenner City Police Department. (R. at
844:29-31.) After C.B. disclosed the abuse at the Oschner Kenner
Hospital emergency room, her treating physician reported the
disclosures to the Kenner Police Department — and Officer Blair was
dispatched to obtain an initial report from C.B. (R. at 845:26-46:16.)
Upon his arrival, Officer Blair met with C.B. (R. at 847:1-5) who was
thirteen years old at the time (R. at 846:21-23) and took a brief written
statement from her (R. at 850:3-14). C.B. advised Officer Blair that she
had evidence on her phone relating to the last incident of sexual abuse —
the photos and video she had taken after the incident (R. at 852:32-53:7)
— and, after viewing them, Officer Blair contacted a Kenner Police
Department Crime Scene Unit and had the photographs and video
preserved (R. at 853:8-18).
13. Testimony of Crime Scene Technician Alexis Englade.
Officer Engalade testified she is a crime scene technician with the
Kenner City Police Department. (R. at 860:11-17.) After C.B. disclosed
the abuse at the emergency room, she was contacted by Officer Blair and
asked to photograph C.B.’s person and certain items on C.B.’s
cellphone. (R. at 861:6-21, 862:12-17.)
14. Testimony of Deputy Brian Knowles. Deputy Knowles
testified he is a road deputy with the Jefferson Parish Sheriff’s Office. (R.
at 865:10-18.) After C.B. disclosed the abuse at Oschner Kenner’s
emergency room and repeated her disclosures to Officer Blair, Deputy
Knowles testified he was dispatched at the request of Officer Blair
because portions of the abuse disclosed by C.B. occurred outside of
Kenner, in unincorporated Jefferson Parish. (R. at 866:18-32.) Upon his
arrival, he met with C.B. concerning her disclosures and noted her

[18]
|

demeanor and affect was consistent with his training concerning
disclosures of chiM-sexual abuse. (R. at 868:31-69:1-22.)
15. Testimony of Axel Salazar, C.B.’s Friend. Axel testified
that he and C.B. had become friends when they attended Meisler Middle
School together. (R. at 1339:1-6.) He testified Cynthia had confided in
him that something had happened to her (R. at 1343:6-12.) that someone
had come into her room to force sex on her (R. at 1344:20-22) but never
would say who it was (R. at 1343:6-12). He recalled that C.B. stated
multiple times she disliked living with Appellant. (R. at 1341:15-16.)
When he came to visit her at home, he often found her locked in her
room crying. (R. at 1341:16-18.) She cried at school frequently. (R. at
1341:20-21.) In speaking with C.B., Axel recalls she stated she was afraid
of Appellant, and went to her room to close herself off so she would not
have to see him. (R. at 1342:9-17.) He also noticed C.B. avoided personal
contact and became nervous or scared when people touched her. (R. at
1341:31-42:8.) Axel encouraged C.B. to tell her mother about what was
going on so she “wouldn’t feel alone or sad” and promised, “whatever
happened, as her friend, I will always be there for her.” (R. at 1342:3031.)
16. Detective Solomon Burke, Expert in Digital Forensics.
Detective Burke was accepted as an expert in the field of mobile device
analysis and digital forensics analysis. (R. at 1224:2-13.) He downloaded
the contents of three cellphones in this matter (R. at 1227:14-19) — one
belonging to C.B. (R. at 1230:21-32), one to C.B.’s mother (R. at
1227:32-28:3) and one to Appellant (R. at 1232:16-19). He testified that
his analysis revealed an outgoing text message to C.B. on Appellant’s
phone from the date of C.B.’s disclosure advising her that he had just
gotten married. (R. at 1242:23-43:22.) Also, he discovered a partial
message on Appellant’s phone, which had been marked for deletion, and

[19]

which had been received on the date of the last incident described by
■C:Br(Rratl250:31::S2:12') Although he was unable to recover the name
of the person who had sent the message, it had been received by
Appellant’s phone shortly after the incident described by C.B. and read:
“Leave me alone. I can’t stand you.” (Id)
17. Dr. Tessa Hue, Emergency Room Physician. Dr. Hue
testified as an expert in emergency room medicine. (R. 1348:3-15.) She
examined C.B. at the hospital the day she disclosed Appellant’s abuse.
(R. at 1348:23-25.) Dr. Hue obtained a medical history from C.B. upon
her arrival

which was consistent with C.B.’s trial testimony. (Compare

R. at 1358:28-1359:22 with R. at 1278:27-1314:19.) Dr. Hue also
conducted a physical examination of C.B.; she testified that, although
C.B. indicated the beast sucking from the last incident had left marks on
her breasts, and identified those marks, on inspection, they appeared to
be stretch marks — and unlikely to have been caused by sucking. (R. at
1350.19-28.) When shown the photograph C.B. took of her breast shortly
after the final incident, Dr. Hue agreed it showed erythema, or faint
redness, consistent with what C.B. had described. (R. at 1368:24-69:20.)
Dr. Hue testified that her diagnosis of C.B. was “sexual assault with
rape because “she didn’t find anything on exam to diagnose
otherwise.” (R. at 1352:23-1353:12.) She agreed that nothing about her
examination of C.B., to her mind, proved that C.B.’s claims were untrue
(R. at 1374:4-8) and recommended C.B. be referred to the Audrey
Hepburn Care Center for examination by an expert in child sexual abuse
(R. at 1371:27-1) - expertise to which Dr. Hue testified she would defer
(R. at 1372:8-12).
18. Fernando Perez Rivero, C.B.’s Maternal Uncle. Mr. Rivero
testified C.B. is his sister’s daughter. (R. at 1378:21-23.) He claimed
Haile, C.B. ’s father, used derogatory terms when referring to Appellant.

[20]

(R. at 1383:1-30.) He testified he was surprised by C.B.’s allegations
because he “didn’t expect something like that” from Appellant. (R. at
1384:10-12.) However, on cross-examination as a character witness, he
admitted he also was unaware that Appellant had had multiple other
secret sexual relationships with various women during his relationship
with C.B.’s mother. (R. 1396:22-97:15,1399:2-9.)
19. Ivonne Arimijo. Ms. Arimijo testified as a character witness.
She stated she met Appellant when he did repair work on her home (R.
at 1406:28-31) had always treated her and others with respect (R. at
1407:7-12) and had a reputation for doing good work (R. at 1408:5-10).
On cross-examination, she also had no idea Appellant was having
multiple affairs with different women behind his wife’s back. (R. at
1409:6-8, 9-27.)
20. Marisol Aranguren. Ms. Aranguren also testified as a
character witness. She stated she had also met Appellant when he did
work on her home and that he appeared to be a contentious and honest
worker (R. 1412:26-13:16.)
Summary of the Argument
In Appellant’s counseled brief on Appeal, he contends that the
verdicts as to counts 2 and 3 were non-unanimous. Hence, because this
matter is on direct appeal, he claims the United States Supreme Court’s
decision in Ramos is applicable and requires the reversal of these two
counts. In Appellant’s pro se brief, he further contends that the jury’s
verdict as to count 1 was also non-unanimous and requires reversal.
Review of both the trial transcript and the jury poling slips, lodged with
this court on appeal, confirms that the jury’s vote as to Count 1 was
unanimous. Hence, the State agrees with Appellant’s counsel on appeal
that, as to count one, there are no defects requiring reversal under
Ramos. Appellant’s pro se argument to the contrary is wholly

[21]

unsupported by the record on appeal and is false. As to Counts 2 and 3, a
review of the record confirms Appellant’s claim that the jury’s verdicts
were non-unanimous. Accordingly, the State must concede that these
verdicts are contrary to Ramos, and must be vacated — along with their
attendant sentences.
As to Appellant’s second claim, that the evidence, in this case,
was insufficient as to all three counts — in light of its concession that
Counts 2 and 3 require reversal — the State limits its discussion
regarding sufficiency to Count 1. On that count, the testimony of C.B.
the victim, as accepted by the finder of fact, outlined an incident in which
Appellant penetrated her vagina with his penis. This act fits the
applicable definition of sexual battery. The testimony of C.B. further
confirms that this incident occurred when she was eleven years old.
Exhibits entered into evidence at trial established Appellant’s date of
birth and proved that, at the time of the incident constituting Count 1,
Appellant was older than seventeen and that he was more than three
years older than C.B. at the time of that incident. Accordingly, viewing
the evidence in the light most favorable to the State, there was sufficient
evidence to establish each element of sexual battery on a child younger
than thirteen beyond a reasonable doubt.
&

Finally, as to Appellant’s second claim, that the State’s rebuttal
closing argument misrepresented Dr. Hue’s testimony and misled the
jury, this claim is without merit. The State’s closing argument was
?»•

within the scope of Louisiana Code of Criminal Procedure Article 774,
Appellant failed to avail himself of the remedy of requesting an
admonition, and the jury was instructed that closing Arguments were not
to be considered as evidence.

[22]

Argument
Claim # I: The Verdicts Rendered are Contrary to Ramos
Previously under Louisiana law, for an offense committed before
January 1, 2019, in which punishment was necessarily confinement at
hard labor, ten of twelve jurors were required to concur to render a
verdict. See La. Const. Art. I, § 17; LSA-C.Cr.P. art. 782. On April 20,
2020, in Ramos v. Louisiana, the United States Supreme Court held that
the Sixth Amendment right to a jury trial, as incorporated by the
Fourteenth Amendment, requires a unanimous verdict to convict a
defendant of a serious offense in both federal and state courts. —U.S. —,
140 S.Ct. 1390, 206 L.Ed.2d 583 (2020). “For purposes of the Sixth
Amendment, federal law defines petty offenses as offenses subject to
imprisonment over six months. ” State v. Harrell, 19-371, p. 12 (La. App.
5 Cir. 7/8/20); —So.3d—, 2020 WL 3832806, at *7.
The Louisiana Supreme Court has recognized the Ramos decision
to be applicable to cases pending on direct review. State v. Ford, 20-241
(La. 6/3/20);

So.3d —, 2020 WL 3424531 (holding that, as “[t]he

present matter was pending on direct review when Ramos v. Louisiana
was decided ... the holding of Ramos applies.”) Applying Ramos to cases
involving serious offenses” on direct review where non-unanimous jury
verdicts had been returned, this Court has vacated the convictions and
sentences and remanded the matters to the trial court for further
proceedings. See Harrell, 2020 WL 3832806, at *7; State v. Rivas, 19-378,
p. 4 (La. App. 5 Cir. 5/21/200; -So.3d-, 2020 WL 2569820, at *3.
In this case, during a bench conference with both the State and
Appellant’s trial counsel, the trial court manually counted each polling
slip for all three charges. (R. at 1493:28-1494:7.) According to the record,
the vote of the jury as to count one was twelve to zero in favor of guilty—
and was therefore unanimous, consistent with Ramos. (R. at 1493:3094:1.) However, the vote as to both counts two and three was ten to two
[23]

in favor of guilty. (R. at 1494:2-7.) Physical inspection of the jury polling
slips, included in the trial court record lodged with this Court on appeal
confirms the counts reflected in the trial transcripts as to all three-of the
counts against Appellant. Accordingly, the holding in Ramos controls in
this case

and the State must therefore concede, as to counts two and

three, Appellant’s counseled claim number 1 has merit.

Claim # 2: The Evidence Was Insufficient
When considering the sufficiency of the evidence, Appellate
courts ask whether: “after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt. Jackson v.
Virginia, 443 U.S. 307, 319 (1979); State v. Clifton, 17-538, p. 13 (La. App.
5 Cir. 5/23/18); 248 So.3d 691,702. “[I]n making such a
determination,” the Louisiana Supreme Court has said, “a reviewing
court is not called upon to decide whether it believes the witnesses or
whether the conviction is contrary to the weight of the evidence.” State
v. Smith, 600 So.2d 1319,1324 (La. 1992). Appellate courts will not
second-guess fact-finders; thus, if any reasonable fact-finder could
convict, the State’s evidence is sufficient - and any challenge to it fails.
See id.
In any criminal case, the State may prove a crime’s elements with
direct or circumstantial evidence; the State is never limited to direct
testimony. “Circumstantial evidence consists of proof of collateral facts
and circumstances from which the existence of the main fact can be
inferred according to reason and common sense.” Clifton, 248 So.3d at
703. When the State’s case consists exclusively of circumstantial
evidence, that evidence “must exclude every reasonable hypothesis of
innocence.” LSA-R.S. 15:438. However, this is merely an “evidentiary
guideline for the jury;” the test is, and has always been, proof beyond a
[24]

reasonable doubt. State v. Bridgewater, 823 So.2d 877 (La. 2002). Thus,
there is no stricter standard of review for circumstantial evidence. State
v. Maxie, 614 So.2d 1318 (La. App. 3 Cir. 1993). Ultimately, “[a]ll
evidence, both direct and circumstantial, must be sufficient to support
the conclusion that the defendant is guilty beyond a reasonable doubt.”
Clifton, 248 So.3d at 703.
When a fact-finder rationally rejects a defendant’s hypothesis of
innocence, that hypothesis fails — and cannot support reversal. State v.
Francois, 03-1313 (La. 4/14/04); 874 So.2d 125; State v. Sosa, 921 So.2d
94 (La. App. 5 Cir. 2006). Thus, on review, unless there is another
hypothesis so persuasive that a rational juror could not find guilt beyond
a reasonable doubt, a conviction must stand. Id. Hence, appellate courts
will not consider merely whether some conceivable hypothesis might
afford an exculpatory explanation of the events. State v. Davis, 637 So. 2d
1012 (La. 1994). That is, reviewing courts will not rule out every
hypothesis before affirming a jury’s verdict — that would usurp the fact­
finder’s purpose. State v. Williams, 768 So.2d 728 (La. App. 2 Cir.
2000). Instead, a reviewing court will reverse a conviction only if no
rational fact-finder, including the judge or jury who already did convict,
could convict

assuming it found every fact and inference in the

State’s favor.
The credibility of a witness, including the victim, is within the
sound discretion of the trier of fact, who may accept or reject, in whole or
in part, the testimony of any witness. ” Clifton, 248 So.3d at 703.
Furthermore, [i]n the absence of internal contradiction or
irreconcilable conflict with the physical evidence, the testimony of one
witness, if believed by the trier of fact, is sufficient to support a
conviction.” Id. And, in particular, “[i]n sex offense cases, the testimony
of the victim alone can be sufficient to establish the elements of a sexual

[25]

offense, even when the State does not introduce medical, scientific, or
piysical. evidence to-prove the commission of the offenses.” Id.
In this case, Appellant was convicted of one count of sexual
battery on a child younger than thirteen (Count 1), one count of indecent
behavior with a child under the age of thirteen (Count 2), and one count
of indecent behayior with a child (Count 3). Because the State concedes
error requiring reversal under Ramos as to counts 2 and 3, it pretermits
discussion of the sufficiency as to these counts and limits its discussion
to Count 1. Sexual battery is defined in relevant part as “the intentional
touching of the anus or genitals of the victim by the offender using any
instrumentality or any part of the body of the offender, [directly or
through the cloathing], or the touching of the anus or genitals of the
offender by the victim using any instrumentality or any part of the body
of the victim, [directly or through the cloathing],” when the victim has
not yet attained fifteen years of age and is at least three years younger
than the offender.” Id. Also, “La. R.S. 14:43.1(C)(2) provides for a
harsher penalty when the victim is under the age of thirteen and the
offender is seventeen years of age or older. ” Id.
A review of the record, in this case, reveals that the evidence
presented at trial established each element of the offense alleged iin count
one — sexual battery on a child younger than thirteen. C.B. testified at
trial to an act committed by Appellant which occurred when C.B.

was

eleven years old. (R. at 1280:29-32,1281:20-24). The marriage
certificate between Y.P.R. and Appellant (State’s Trial Ex. 44)

as well as
the audio recorded interview with Appellant (State’s Trial Ex. 74)
established that Appellant would have been over the age of seventeen at
the time of this incident and, farther, that the difference in ages between
C.B. and Appellant would h ave been greater than three years. Finally,
C.B. ’s description of the first incident of sexual abuse

in which she
stated that Appellant penetrated her vagina with his penis (R. at 1281:9,

I
I

[26]

\

1281:25-82:1) falls within the definition of sexual battery for purposes of
_ sexuaLha,ttery_oji-axhild-younger than thirteen.
While C.B. and Appellant were the only people present for this
first incident — and, so, independent eye-witness corroboration was
therefore simply unavailable — significant other portions of her
testimony were corroborated by other witnesses and independent
evidence. Both H.B. and his girlfriend verified C.B.’s account of her
initial disclosure of the abuse. Forensic cell phone downloads
corroborated that Appellant had sent C.B. text messages describing his
desire to have sexual intercourse with C.B. Axel, C.B.’s school friend,
testified that C.B. had discussed being abused around the time she
claimed at trial that the abuse had started as well as throughout the
period after that abuse and leading up to her ultimate disclosure of it. Dr.
Mehta, an individual Appellant stipulated was an expert in child sexual
abuse pediatrics, testified C.B. gave a clear and detailed description of
this initial incident of abuse and, in fact, diagnosed C.B. with child sexual
abuse. Finally, C.B.’s description with this initial incident was
appropriately consistent throughout her numerous out of court
descriptions of it as well as her in court testimony under both direct and
cross-examination. Accordingly, the State submits that the evidence, in
this case, was sufficient to establish all of the elements necessary to prove
Appellant’s guilt beyond a reasonable doubt as to Count 1.
Claim # 3: Improper Rebuttal Closing Arguments
Louisiana Code of Criminal Procedure Article 774 states:
“[■closing arguments should be confined to the evidence admitted, to the
lack of evidence, to conclusions of fact to be drawn from the evidence,
and to the law applicable to the case.” It further provides that “[tjhe
argument shall not appeal to prejudice.” Id. Even so, a prosecutor has
considerable latitude in making closing arguments. State v. Jackson, 04-

[27]

293 (La. App. 5 Cir. 7/27/04); 880 So.2d 69, 73. Accordingly,
jurisprudence, has .long■recognized-that-anappellatecourt~will not reverse
a conviction because of improper closing arguments unless it is
thoroughly convinced that the remarks influenced the jury or contributed
to the verdict. ” See State v. Howard, 98-0064, p. 26 (La. 4/23/99); 751
So.2d 783, 812. And, in making this decision, credit should be given to
the jury’s good sense and fairmindedness. Jackson, 880 So.2d at 73.
In this case, during rebuttal closing arguments, the undersigned
stated: “ Their own expert told you that her diagnosis, after she came in,
was child sexual abuse.” (R. at 1464.) Defense counsel objected and the
court overruled that objection. (R. at 1464:16-66:12.) Thereafter, the
undersigned stated: “I’m going to say it again. The medical records from
their own expert said, “Diagnosis, child sexual abuse with

rape. ” (R. at

1466:20 22.) On appeal, Appellant claims the undersigned
“mischaracterized the testimony of Dr. Hue and clearly mislead the
jury. ”
On the contrary, the undersigned’s statements were entirely
accurate and were well within the State’s considerable latitude in making
closing arguments. During her direct testimony, Dr. Hue specifically
testified that her “[ejncounter diagnosis” of C.B. “was sexual assault
with rape.” (R. at 1352:23-26.) When defense cousel asked Dr. Hue to
verify whether that was in fact her diagnosis of C.B, Dr. Hue testified
that [tjhat was my diagnosis not based

s

on my exam findings but based

on her complaint because I didn’t find

anything on exam to diagnose
otherwise.” (R. at 1352:27-30.) On cross-examination by the State, Dr.
Hue agreed that “nothing about [her] interactions with [C.B.] proved to
[her] mind that it [the abuse] didn’t happen.” (R. at 1374:4-8.) Dr. Hue
also testified that she would defer in

her own diagnosis to the diagnosis of
Dr. Mehta at Children’s Hospital. (R. at 1372:8-12.) And when asked by
the State: “ if the medical director of the Audrey Hepburn Care Center in
.

[28]
r

New Orleans at Children’s hospital ... testified that her diagnosis for
[C.B.]... was child sexual abuse, would you defer to that diagnosis ..., ”
Dr. Hue responded, “[absolutely.” (R. at 1372:13-21.) Furthermore, it
was Appellant — not the State — who called Dr. Hue as a witness (R. at
1346:12-13) and it was Appellant — not the State — who offered her as
an expert (R. at 1348:3-15). Hence, the State submits that the rebuttal
closing argument in this case neither misstated Dr. Hue’s testimony not
mislead the jury.
Furthermore, even if the undersigned’s argument was improper
but it was not

the State notes that the proper remedy under Article

771. of the Code of Criminal Procedure would have been for the Court to
admonish the jury; however, the defense did not request such an
admonishment. That article provides that when a prosecutor’s remark is
irrelevant or immaterial and of such a nature that it might create
prejudice against the defendant in the mind of the jury, the court shall
admonish the jury upon request of the defendant. Here, Appellant never
asked the trial court to provide the principal, and preferred remedy, for
the infraction he claimed occurred — but which the trial court ultimately
held had not occurred.
Moreover, the trial Court’s jury charges included an instruction
that opening and closing statements were not to be considered as
evidence. Specifically, the trial court instructed the jury as follows:
[t]he statements and arguments made by the lawyers are not
evidence....The opening statements and closing statements are not to be
considered as evidence.” (R. at 1479:12-21.) Hence, even if the
undersigned rebuttal closing argument was improper, the jury was
instructed that that argument was not evidence, and not to consider it as
such. Appellant fails to show how he was prejudiced in this case, and any
error

if there was error — would be harmless.

[29]

In this case, the undersigned’s closing argument was within the
scope of Louisiana Code of Criminal Procedure Article 774, Appellant
failed to avail himself of the remedy of requesting an admonition, and the
jury was instructed that closing Arguments were not to be considered as
evidence. As such, there is no merit to this claim.
Conclusion
The State submits that the claims raised by Appellant as to Count
1, sexual battery on a child younger than thirteen, are all without merit.
The State concedes that the jury’s verdicts as to Count 2 and Count 3,
indecent behavior with a juvenile, violate Ramos and therefore require
reversal. Accordingly, the State prays this Court affirm Appellant ’ s
conviction and sentence as to Court 1. It is compelled to pray this Court
reverse Appellant’s convictions and sentences as to Counts 2 and 3, and
remand those counts to the district court for further proceedings. .
Respectfully Submitted:
THOMAS J. BUTLER, JR. #23451
Assistant District Attorney
Chief of Appeals'
BY:

:a

1

MATTHEW R? Cl;AUSS)# 31664
Assistant DitfLlctrAttorn'ey'’’
Counsel of Record on Appeal
Office of the District Attorney
200 Derbigny Street
Gretna, Louisiana 70053
(504) 368-1020

[30]

>?

:>

t:

I

i

CERTIFICATE OF SERVICE
Cl

■O,

■-

■

3

all parties by placing same in the United States Mail, this 4th day of

■»

I

September, 2020

*

BY:

(

MATTMV4. CLAUS§># 31664
Assistant DistrfcFffttorney
Counsel of Record on Appeal
Office of the District Attorney
200 Derbigny Street
Gretna, Louisiana 70053
(504) 368-1020

A

!

3
3

4

■*.

4

i

:4:

S

■3

a1

I

■i

4

a
4
4

£

14

*

'I
1

I
[31]

4

&

3

SUSA*N M.'CHEHARDV

CURTIS B. PURSELL

• tCrtIEFJUl3Gf

CLERK OF COURT
NANCY F. VEGA

FREDERICKA H. WICKER
JUDE G. GRAVOIS
MARC E. JOHNSON
ROBERT A. CHA1SSON
STEPHEN J. WINDHORST

CHIEF DEPUTY CLERK

SUSAN BUCHHOLZ
FIRST DEPUTY CLERK

HANS J. LIUEBERG
-4QHN-*-MGLAISON, JR.

FIFTH CIRCUIT
101 DERBIGNY STREET (70053)

JUDGES

MELISSA C. LEDET
DIRECTOR OF CENTRAL STAFF

POST OFFICE BOX 489
GRETNA, LOUISIANA 70054
www.fifthcircuit.org

(504) 376-1400
(504) 376-1498 FAX

NOTICE OF JUDGMENT AND CERTIFICATE OF DELIVERY
I CERTIFY THAT A COPY OF THE OPINION IN THE BELOW-NUMBERED MATTER HAS BEEN DELIVERED
IN ACCORDANCE WITH UNIFORM RULES - COURT OF APPEAL, RULE 2-16.4 AND 2-16.5 THIS DAY
DECEMBER 23, 2020 TO THE TRIAL JUDGE, CLERK OF COURT, COUNSEL OF RECORD AND ALL PARTIES
NO: REPRESENTED BY COUNSEL, AS LISTED BELOW:

CURTIS B. PURSELL

20-KA-60

CLERK OF COURT

E-NOTIFIED
24TH JUDICIAL DISTRICT COURT (CLERK)
HONORABLE E. ADRIAN ADAMS (DISTRICT JUDGE)
MATTHEW R. CLAUSS (APPELLEE)
THOMAS J. BUTLER (APPELLEE)
GRANT L. WILLIS (APPELLEE)

JANE L. BEEBE (APPELLANT)

MAILED
HONORABLE JEFFREY M. LANDRY
(APPELLEE)
ATTORNEY GENERAL
LOUISIANA DEPARTMENT OF JUSTICE
1885 NORTH 3RD STREET
6TH FLOOR, LIVINGSTON BUILDING
BATCN ROUGE, LA 70802

T*

RAFAEL ARTURO COTO CHINCHILLA
#747756 (APPELLANT)
RAYBURN CORRECTIONAL CENTER
27268 HIGHWAY 21
ANGIE, LA 70426

HONORABLE PAUL D. CONNICK, JR.
(APPELLEE)
DISTRICT ATTORNEY
TWENTY-FOURTH JUDICIAL DISTRICT
200 DERBIGNY STREET
GRETNA, LA 70053

STATE OF LOUISIANA

NO. 20-KA-60

VERSUS

FIFTH CIRCUIT

RAFAEL ARTURO COTO CHINCHILLA

COURT OF APPEAL
STATE OF LOUISIANA

ON APPEAL FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
NO. 17-1472, DIVISION "G"
HONORABLE E. ADRIAN ADAMS, JUDGE PRESIDING

December 23, 2020

STEPHEN J. WINDHORST
JUDGE
Panel composed of Judges Robert A. Chaisson,
Stephen J. Windhorst, and John J. Molaison, Jr.

AFFIRMED IN PART: VACATED IN PART: REMANDED
SJW
RAC
JJM

COUNSEL FOR PLAINTIFF/APPELLEE,
STATE OF LOUISIANA
Honorable Paul D. Connick, Jr.
_____Thomas .J..Butler-----------------------Matthew R. Clauss
COUNSEL FOR DEFENDANT/APPELLANT,
RAFAEL ARTURO COTO CHINCHILLA
Rafael Arturo Coto Chinchilla
Jane L. Beebe

WINDHORST, J.
. Defendant,-Rafael-Arturo-Goto-Gh inchi lla~ appeals'll is'convict ion of sexual"
battery of a juvenile under thirteen (count one), indecent behavior with a juvenile
under thirteen (count two), and indecent behavior with a juvenile (count three). For
the reasons that follow, we affirm defendant’s conviction and sentence on count one
for sexual battery of a juvenile under thirteen, and vacate defendant’s convictions
and sentences on counts two and three for indecent behavior with a juvenile under
thirteen and indecent behavior with a juvenile, and remand the matter to the trial
court for further proceedings.
STATEMENT OF THE CASE
On July 18, 2017, the Jefferson Parish District Attorney filed a bill of
information charging defendant, Chinchilla, with sexual battery of a juvenile under
thirteen in violation of La. R.S. 14:43.1 (count one), indecent behavior with a
juvenile under thirteen in violation of La. R.S. 14:81 (count two), and indecent
behavior with a juvenile in violation of La. R.S. 14:81 (count three), all involving
the same victim. Defendant pled not guilty.
Jury selection and trial began on August 26, 2019, and trial before a twelveperson jury concluded on August 30, 2019. The jury unanimously found defendant
guilty as charged on count one, but found defendant guilty as charged by a ten to
two concurrence on counts two and three. On September 12, 2019, the trial court
sentenced defendant for count one to sixty years imprisonment at hard labor, twentyfive years of the sentence to be served without benefit of parole, probation, or
suspension of sentence. Defendant was informed that, as to count one, upon release
he must register as a sex offender for the duration of his life and conform to all of
the rules, regulations, and terms of the sex offender registration laws. As to count
two, the trial court sentenced defendant to twenty years imprisonment at hard labor,
ten years of the sentence to be served without benefit of parole, probation, or
20-KA-60

suspension of sentence. As to count three, defendant was sentenced to seven years
imprisonment at hard labor.

The trial court ordered the sentences to run

concurrently.
FACTS
The testimony at trial revealed the following. H.B., the victim’s father,
married the victim’s mother, Y.P., shortly before the victim, C.B., was born, and the
three lived together in Cuba. H.B. and Y.P. eventually separated but did not divorce
while living in Cuba. While they were still married, they legally immigrated to the
United States with C.B. and initially lived in Miami.
Y.P. and C.B. moved to New Orleans, while H.B. remained in Miami for eight
or nine months before moving to New Orleans and living with C.B., Y.P., and Y.P.’s
brother.1 By that point, Y.P. had met Chinchilla, who lived with them for a few
months. H.B. later moved into his own apartment and, despite having no formal
custody agreement, would bring C.B. to his apartment three times a month.
After H.B. moved to New Orleans, he met Yanicet Garrido through Y.P., and
eventually became involved in a relationship with her. Ms. Garrido moved in with
him, and C.B. continued to visit him. According to H.B., over the course of two
days, C.B. asked multiple times to live with him and Ms. Garrido. C.B. told H.B.
that she did not want to go anywhere with or be around defendant.
On February 13, 2017, Y.P. called H.B. and asked him to pick C.B. up from
school. At his house, C.B. showed Ms. Garrido photographs on her phone of a
school party but when H.B. tried to see the photographs, she did not want to give
him the phone. H.B. eventually got the phone and found a video of her saying,
“leave me alone Jonathan, leave me alone.”

H.B. and C.B. clarified that this

referenced defendant, who goes by “Jonathan.” When H.B. asked C.B. about it she

H.B. and Y.P., the victim's parents, divorced in November of 2016.

20-KA-60

began crying, saying defendant sexually abused her. According to Ms. Garrido,
defendant did not visually appear in the video, but she heard defendant’s voice in it,
and C.B.’s voice sounded like she was in danger. C.B. was thirteen and a half years
old when she disclosed this sexual abuse.
Soon thereafter, H.B. asked Y.P. to come see him, and when she arrived at his
house, he relayed to her what C.B. told him. Upon instruction from C.B.’s doctor,
H.B. brought her to the hospital where she was seen by a doctor, and the police were
contacted. At the hospital, the. police spoke to C.B. The emergency room doctor
recommended that C.B. see an expert at Children’s Hospital.
At Children’s Hospital, the doctor diagnosed her with “child psycho bias” and
recommended C.B. receive counseling. The doctor also recommended that C.B. be
interviewed at the Child’s Advocacy Center (CAC). H.B. said he took C.B. to
counseling multiple times, which seemed to help her, and also to CAC for an
interview. A child protection investigator opened a case regarding these allegations
and made a “valid finding of child sexual abuse.” Detectives looked at C.B.’s phone
and took a photograph of a photograph on C.B.’s phone from November of 2016
showing a mark on C.B.’s breast where defendant licked her. H.B. testified that he
had seen the mark in person while C.B. changed clothes, but she told him it was a
mark from her bra.
After defendant was arrested, Y.P. gave H.B. text messages from C.B.’s
phone and a letter between C.B. and a friend. H.B. testified that he never doubted
C.B. and that, while Y.P. was initially supportive, she no longer supported C.B and
had not contacted her for over two years. Y.P. testified that she became suspicious
of C.B.’s accusations because Ochsner did not give “proper proof’ that C.B . was
sexually abused, “all of the exams came out negative,” and C.B. was never diagnosed
with sexual abuse. She recounted a brief story that occurred “[a]fter everything got
cooled down,” where C.B. said she did not care about her mom. Y.P. testified that
20-KA-60

it was that moment that she found out C.B. was “manipulated by the people that
surrounded her,”—She. also stopped believing C.B. because her grades were very
good, and C.B. “never rejected him.” Y.P. testified that H.B. called defendant
derogatory nicknames, and that she and defendant did not get along with Ms.
Garrido.
C.B. testified that she was ten years old when her mother met defendant. She
stated that in August 2015, when she was eleven years old, her mom left her with
defendant at their home while she did paperwork for her taxes. She stated that she
was asleep when defendant came into her room. She said he woke her up, and she
told him to get out. She testified that defendant then went on her bed, and she tried
to get him to move. She stated that defendant got on top of her. She punched and
kicked him until they fell to the floor. She stated that she told him to stop and
screamed at him, but he would not leave. She testified that defendant removed her
panties and put his penis in her vagina. She stated that after he was done, he went
back to his room, and she went to the bathroom to take a shower “because [she] felt
disgusting. Afterwards, he returned to her bedroom and gave her money for school
books; she testified that she told him she wanted him to leave.
C.B. also testified to a later incident in 2015 when her mom was out walking,
and defendant arrived at their Metairie home early from work. She stated that she
had a bathrobe on, and defendant entered her bedroom. She told him to leave; he
took off her bathrobe and sucked on her breasts, leaving “purple and reddish” marks
on both of her breasts. C.B. stated that defendant would try to kiss or bite her when
her mother was not looking and sent her messages like, “oh, I love you. If I see you
with anyone, I’m going to kill you.” She took screenshots of some of those messages
but others she erased because defendant would occasionally take her phone and
check it.

20-KA-60

C.B. stated that the last incident occurred on February 13,2017, when she was
thirteen years old, at.their_housejniCenner.after.he.picked.her-upfrom.school-in-his
green truck and bought her favorite food. She testified that she did not want to be
alone with him “because [she] knew he would try to do something” so she stalled
going into the house. She testified that she went to her room and locked the door;
but, defendant unlocked it with his key and threw her on the bed. She stated that he
sucked on her breasts again. She said her mom and brother arrived home sometime
later. She took a photograph on her phone of the mark defendant left; she also took
a video of herself telling him to leave her alone. She stated that when she took the
video, she felt really bad and wanted to call the police. She said that she took the
video as proof that he was calling her names. C.B. stated that defendant told her that
if she told her mom what he did, her brother would hate her, and they would suffer
because he pays all of the bills; she testified that he said he would send someone to
kill her if she called the police. Some of defendant’s threats did come true.
She stated that she told her dad numerous times that she wanted to live with
him because she “didn’t want to live with [her] mom because Rafael was there.” She
said she was scared to tell her dad what was going on.
A.G., a friend of C.B. when she was about eleven years, testified at trial that
he and C.B. used to talk on the phone, that she told him that somebody had entered
her room and tried to force her to have sex, and that she often cried when they spoke
on the phone. A.G. stated that C.B. was afraid of defendant and would “close herself
in the room because she didn’t like to see him or even eat when he was there.” He
testified that C.B. would become scared if the two of them got physically close, and
that she did not like people touching her.

20-KA-60

5

Dr. Tessa Hue, an emergency medicine physician, testified that she examined
C.B. at Ochsner Hospital on February 13, 2017.2 Dr. Hue stated that C.B. told her
that, one day that month, defendant picked her up from school, and once at home
she locked her door, but defendant unlocked it with a key and came in. She told Dr.
Hue defendant sucked on her breasts, leaving marks. C.B. also disclosed to Dr. Hue
other incidents between 2015 and 2017, explained that her father found the video,
and showed Dr. Hue the video. She noted during her physical examination that there
were streaks on C.B.’s breasts “consistent with stretch marks,” and there was no
bruising or marks consistent with teeth marks. Dr. Hue testified that she noted in
her report an “encounter diagnosis” of sexual assault, which was not based on the
exam findings but on C.B.’s complaint because she did not find anything during the
exam to diagnose otherwise.
Dr. Neha Mehta is the Medical Director at the Audrey Hepburn Care Center,
a comprehensive child abuse center at Children’s Hospital.3 Dr. Mehta testified that
a close familial relationship like that between defendant and C.B. is very common
between abuser and victim and that it is also common for the abuse to occur in their
shared home. Dr. Mehta testified that she conducted and recorded a child abuse
examination of C.B., including obtaining her medical history. C.B. told her that she
had never really disclosed details of her abuse until her father found the video, which
Dr. Mehta indicated is the norm.” C.B.’s version of events in the audio recording
was played for the jury and was consistent with her prior statements.
Brittney Bergeron, a forensic interviewer at the Jefferson Children’s
Advocacy Center, also interviewed C.B. Ms. Bergeron indicated that during the
interview, C.B. mentioned an incident at her mother’s prior apartment, two incidents
wherein her breasts were sucked, and some incidents regarding kissing. The audio

2 Dr Hue was admitted as an expert in emergency room medicine.
Dr. Mehta was accepted as an expert in the fields of general pediatrics and child sexual abuse pediatrics.
20-KA-60

and video recording of C.B.’s forensic interview was admitted into evidence and
played for the jury. Her description of the three incidents to Mst Bergeron was
consistent with her prior statements.
ASSIGNMENTS OF ERROR
Defendant, through counsel, asserts that (1) the trial court erred in accepting
a non-unanimous jury verdict on counts two and three in light of the U.S. Supreme
Court’s recent ruling in Ramos v. Louisiana, 590 U.S.— , 140 S.Ct. 1390, 206
L.Ed.2d 583 (2020); (2) the evidence was insufficient to support the verdict in all
three counts; and (3) the trial court erred in failing to sustain defendant’s objection
during rebuttal closing argument regarding the prosecutor’s mischaracterization of
the emergency room doctor’s testimony, which misled the jury. Defendant, in a pro
se brief, reasserts that he was denied his constitutional rights to trial by jury, due
process, and equal protection when he was convicted by a non-unanimous jury and,
that the evidence was insufficient to support the verdict.
Sufficiency of the Evidence
We first consider whether the evidence at trial was sufficient to prove the
crimes charged beyond a reasonable doubt. If a reasonable trier of fact, when
viewing the evidence in the light most favorable to the prosecution, could not
reasonably conclude that all of the elements of the offense have been proven beyond
a reasonable doubt, then the defendant is entitled to an acquittal under Hudson v.
Louisiana, 450 U.S. 40, 101 S.Ct. 970, 67 L.Ed.2d 30 (1981), and State v. Hearold.
603 So.2d 731, 734 (La. 1992).

Accordingly, when evidence is found to be

insufficient, it results in a reversal and acquittal due to a failure to prove the crime
charged beyond a reasonable doubt, to which jeopardy has attached, and the case
cannot be retried. Consideration of sufficiency of evidence must therefore precede
consideration of any other assignment of error which, if meritorious, would result in
vacating the conviction due to trial errors, and remand for possible retrial.
20-KA-60

7

Sufficiency of evidence analysis also precedes consideration of whether a
verdict must be vacated and remanded_under.Ramos v..Louisiana. .5 90.U.S,—,440S.Ct. 1390, 206 L.Ed.2d 583 (2020), 2020 WL 1906545.
The constitutional standard for sufficiency of the evidence is whether, upon
viewing the evidence in a light most favorable to the prosecution, any rational trier
of fact could find that the State proved all of the essential elements of the crime
beyond a reasonable doubt. Jackson v. Virginia. 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979).
Defendant in the instant case was found guilty by a jury of sexual battery of a
juvenile under thirteen in violation of La. R.S. 14:43.1 (count one), indecent
behavior with a juvenile under thirteen in violation of La. R.S. 14:81 (count two),
and indecent behavior with a juvenile in violation of La. R.S. 14:81 (count three).
La. R.S. 14:43.1 defines sexual battery in pertinent part as follows:
the intentional touching of the anus or genitals of the victim by
the offender using any instrumentality or any part of the body of the
offender, directly or through clothing, or the touching of the anus or
genitals of the offender by the victim using any instrumentality or any
part of the body of the victim, directly or through clothing, when any
of the following occur:
*

(2) The victim has not yet attained fifteen years of age and is at
least three years younger than the offender.4
La. R.S. 14:81 defines indecent behavior with a juvenile, in pertinent part, as:
Indecent behavior with juveniles is the commission of any of the
following acts with the intention of arousing or gratifying the sexual
desires of either person:
(1) Any lewd or lascivious act upon the person or in the
presence of any child under the age of seventeen, where
there is an age difference of greater than two years between
the two persons. Lack of knowledge of the child’s age shall
not be a defense;5

meL*„da,1isS»S!,

S'/oSr ^S

«» a9e * **""

“r pa"a',, wha"ma "ciim ,s u"<ter •»
20-KA-60

■><

, and

, and the

In the absence of internal contradiction or irreconcilable conflicts with
physical evidence, the testimony of one witness, if believed by the trier of fact, is
sufficient to support a conviction. State v. Clifton, 17-538 (La. App. 5 Cir. 5/23/18),
248 So.3d 691, 702. In sex offense cases, the testimony of the victim alone can be
sufficient to establish the elements of a sexual offense, even when the State does not
introduce medical, scientific, or physical evidence to prove the commission of the
offense. Id; State v, Bruce. 14-877 (La. App. 5 Cir. 3/25/15), 169 So.3d 671, 675,
writ denied. 15-833 (La. 3/4/16), 187 So.3d 1007.
The record supports a finding that the State presented evidence at trial to
establish each element of the offenses for which defendant was convicted. At trial,
C.B. testified regarding three separate incidents involving defendant, including one
that constitutes sexual battery and two other acts that constitute indecent behavior
with a juvenile. She was between the ages of eleven and thirteen at the time of the
incidents. Defendant was between the ages of twenty-nine and thirty-one at the time
of the incidents.6
According to C.B.’s testimony, the first incident occurred in August 2015,
when she was eleven years old and at home with defendant while her mother was
out. She testified that defendant removed her clothes while she punched and kicked
him; that her resistance made them fall off of her bed and onto the floor; and that
defendant put his penis in her vagina. C.B. testified to a second incident later in
2015, when defendant removed her bathrobe and sucked on both ofher breasts. C.B.
described a third incident on February 3, 2017, when defendant unlocked her
bedroom door, threw her on her bed, and sucked on her breast. C.B.’s testimony at
trial was consistent with other interviews she gave, including those with Dr. Mehta
and Ms. Bergeron.

6 The affidavit for arrest warrant and the waiver of rights form admitted into evidence
at trial indicate
defendant's date of birth is February 25, 1986.
20-KA-60

9

On appeal, defendant asserts that C.B.’s allegations were uncorroborated and
that there is no physical evidence of abuse. Defendant argues that G.B. was
impeached and that impeachment testimony is not sufficient to sustain a conviction.
Defendant’s arguments fail given that a victim’s testimony alone can be sufficient
to establish the elements of a sexual offense, even when the State does not introduce
medical, scientific, or physical evidence to prove the commission of the offense.
This Court has upheld a defendant’s conviction for aggravated rape where there was
no physical evidence of the offense, and the jury heard about the alleged animosity
between the defendant and the victim’s father, noting that the victim’s testimony
was enough to sustain the defendant’s conviction. State v. Hernandez. 14-863 (La.
App. 5 Cir. 9/23/15), 177 So.3d 342, writ denied. 15-2111 (La. 12/5/16), 210 So.3d
810.
In addition, a victim’s testimony need not be uncontradicted to support a
conviction. The resolution of conflicting or contradictory testimony is one of the
fundamental tasks for the trier of fact, who may accept or reject, in whole or in part,
the testimony of any witness. See State v, Bailev. 04-85 (La. App. 5 Cir. 5/26/04),
875 So.2d 949, 955, writ denied. 04-1605 (La. 11/15/04), 887 So.2d 476, cert.
denied, 546 U.S. 981, 126 S.Ct. 554, 163 L.Ed.2d 468 (2005). The contradictions
among witness testimony noted by defendant are not irreconcilably inconsistent with
C.B. s testimony that defendant vaginally penetrated her and sucked on her breasts.
An appellate court cannot re-evaluate the credibility of witnesses or re-weigh the
evidence. State v. Caffrey, 08-717 (La. App. 5 Cir. 5/12/09), 15 So.3d 198, 202,
writ denied. 09-1305 (La. 2/5/10), 27 So.3d 297.
Further, C.B.’s disclosure of the abuse was supported by evidence beyond her
testimony.

The State presented evidence through text messages, videos, and

photographs. The jury also heard from C.B.’s friend that she told him of the first
incident and alluded to other incidents. The jury heard C.B. retell her version of
20-KA-60

10

events multiple times with the recorded interviews, which were consistent with her
-previous statements.
The jury heard all testimdny in this matter and obviously found C.B.’s version
of the events credible.

This Court should not second guess that credibility

determination. State v. Simon. 10-1111 (La. App. 3 Cir. 4/13/11), 62 So.3d 318,
323, writ denied, 11-1008 (La. 11/4/11), 75 So.3d 922. Accordingly, considering
the law and the evidence admitted at trial, we conclude that a rational trier of fact,
viewing the evidence in a light most favorable to the prosecution, could have found
beyond a reasonable doubt that the evidence was sufficient under the standard set
forth in Jackson to support defendant’s convictions of sexual battery of a juvenile
under thirteen, indecent behavior with a juvenile under thirteen, and indecent
behavior with a juvenile. Accordingly, defendant is not entitled to a judgment of
acquittal.
Non-unanimous Verdict
Defendant alleges that the jury verdict for his convictions on counts two and
three, indecent behavior with a juvenile under thirteen and indecent behavior with a
juvenile, are invalid because they were rendered by a non-unanimous jury, and that
the non-unanimous verdict violates the Sixth and Fourteenth Amendments of the
United States Constitution.

Because the punishment for these offenses is

imprisonment for more than six months, a jury of twelve persons was required.7 See
La. Const. Art. I, §17; La. C.Cr.P. art. 782; La. R.S. 14:81. Non-unanimous verdicts
were previously allowed under La. Const. Art. I, §17 and La. C.Cr.P. art. 782, and
the circumstances of this case. The constitutionality of the statutes was previously

Defendant was found guilty of sexual battery of a juvenile under thirteen years of age (count one) which

imprisonment, with or without hard labor, for not more than seven years, or both La R S 14 81 Given
waVrequS relchcoum^6 C°U"tS *
SiX m°nthS imPrisonment' a
twelve persons

20-KA-60

11

addressed by many courts, all of which rejected the argument. See Apodaca v.
Oregon, 406 U.S. 404, 92 S.Ct. 1628, 32i.Ed.2d 184 (1972); State v. Bertrand, OS2215, 08-2311 (La. 03/17/09), 6 So.3d 738, 742-43; State v. Brooks. 12-226 (La.
App. 5 Cir. 10/30/12), 103 So.3d 608, 613-14, writ denied. 12-2478 (La. 04/19/13),
111 So.3d 1030.
However, recently the United States Supreme Court in Ramos v. Louisiana.
supra, found that the Sixth Amendment right to a jury trial, as incorporated against
the States by the Fourteenth Amendment, requires a unanimous verdict to convict a
defendant of a serious offense.8 Id. at 1397. As a result of this decision, all
defendants who were convicted of serious offenses by non-unanimous juries and
whose cases are still pending on direct appeal will be entitled to a new trial. The
State contends that count one should be affirmed because the record indicates a
unanimous verdict on that count, but acknowledges that this assignment of error has
merit as to counts two and three because there was a ten to two verdict on these
counts.
Based on Ramos, and that the instant case is on direct appeal,9 we find that
because the verdict was not unanimous for these serious offenses as required by
Ramos> defendant’s convictions and sentences for counts two and three are vacated
and the matter is remanded to the trial court for further proceedings.

8 For purposes of the Sixth Amendment, federal law defines petty offenses as offenses subject to
m^rT'c;0
mon'hs or less' and serious offenses as offenses subject to imprisonment over six
^e(Slx'h^endment s nght t0 ajory trial only attaches to serious offenses. See generally Lewis
vJJnited States, 518 U.S. 322, 327-28, 116 S.Ct. 2163, 135 L.Ed.2d 590 (1996).
9 See S^nroj^umme^ 542 U.S. 348, 351, 124 S.Ct. 2519, 2522, 159 L.Ed.2d 442 (2004), observing

9“ MMIl'Ef9 °n
an

^a^Uicky, 47^113^314^^8^07^3^1*70^

1 f8J) ( f new,,Fule for the conduct of criminal prosecutions is to be applied retroactively to

" "oln°
20-KA-60

12

ter

,n *“ •»

Assignment of Error Three
___ Defendant iurther alleges that-the State’s rebuttal closing-argument was
improper because it mischaracterized testimony from Dr. Hue (the emergency room
doctor) as the defense expert who diagnosed C.B. as having suffered sexual abuse.
He argues that the trial court erred in not sustaining defendant’s objection because
the misleading comment made a fair trial and fair assessment of the evidence
unlikely. Defendant also contends that the error was not harmless because it was so
prejudicial and depicted defendant as a child sex abuser. The State contends that the
statements were accurate because Dr. Hue stated that her encounter diagnosis was
sexual assault with rape and that her diagnosis was based on C.B.’s complaint.
The prosecutor has considerable latitude in making closing arguments; but,
this latitude has limits. State v. Pierce, 11-320 (La. App. 5 Cir. 12/29/11), 80 So.3d
1267, 1277. La. C.Cr.P. art. 774 confines argument to the evidence admitted, the
lack of evidence, conclusions of fact that the state or defendant may draw therefrom,
and the applicable law.
The trial judge has broad discretion in controlling the scope of closing
arguments. State v. Greenup. 12-881 (La. App. 5 Cir. 8/27/13), 123 So.3d 768, 77576, writ denied, 13-2300 (La. 3/21/14), 135 So.3d 617. A conviction will not be
reversed based on improper remarks during closing arguments unless the reviewing
court is thoroughly convinced that the remarks influenced the jury and contributed
to the verdict. Id A mistrial is a drastic remedy and is warranted only when trial
error results in substantial prejudice to the defendant that deprives him of a
reasonable expectation of a fair trial. State v. Pierce, 11-320 (La. App. 5 Cir.
12/29/11), 80 So;3d 1267, 1277.
In the instant case, defense counsel objected to the State’s rebuttal argument.
Specifically, the prosecutor stated:

20-KA-60

13

Counsel wants to ask about proof. Let’s talk about this. Every
single professional who handles these cases every single day of their
lives came in and toMyou that this is real. Their own expert told you
that her diagnosis, after she came in, was child sexual abuse. And what
did her -

Defense counsel objected, asserting that “She testified the opposite.” The judge
overruled the objection, and at no time did defendant request the trial court to
admonish the jury or request a mistrial.
Upon review, the record does not support concluding that the prosecutor’s
remarks mischaracterized Dr. Hue’s testimony. On direct examination, defense
counsel asked to read the encounter diagnosis from a copy of her medical report after
C.B.’s exam, to which Dr. Hue responded sexual assault with rape. Defense counsel
asked if that was her diagnosis, and she stated, “That was my diagnosis not based on
my exam findings but based on her complaint because I didn’t find anything on exam
to diagnose otherwise.” Counsel then asked if the term “encounter diagnosis” meant
the diagnosis was not based on the exam. Dr. Hue explained that if she cannot find
a cause for their symptoms, their diagnosis is still going to be what they told me
brought them in for medical attention. Thus, the jury heard sufficient explanation
regarding Dr. Hue’s diagnosis and the basis for her diagnosis.
In addition, we do not find that this statement was so prejudicial as to warrant
a mistrial. First, the prosecutor simply reiterated a statement made by a doctor, and
the doctor explained the meaning of terminology used during her testimony. Second,
the trial judge instructed the jury that “The statements and arguments made by the
lawyers are not evidence” and “The opening statements and the closing statements
are not to be considered as evidence.” Third, defense counsel did not request a
mistrial or an admonition under La. C.Cr.P. art. 771.
In light of the foregoing, we find that the trial judge properly overruled
defense counsel’s objection and that this assignment of error lacks merit.
20-KA-60

14

ERRORS PATENT
We have revieWed 'the record for errors patent, according to La. C.Cr.P. art.
920; State v. Weiland. 556 So.2d 175 (La. App. 5 Cir. 1990). On review, we find
two patent errors requiring this case be remanded to the trial court.
First, La. R.S. 15:540, et seq., requires registration of sex offenders and La.
R.S. 15:543(A) requires the trial judge to provide written notification of the
registration requirement of La. R.S. 15:542 and La. R.S. 15:542.1 to the defendant.
The trial court informed defendant that he was required to comply with the sex
offender notification/registration requirements, but the Uniform Commitment Order
(UCO), under the Sentence Conditions section, does not indicate that these
provisions are applicable. Thus, we remand this matter for the trial court to correct
the UCO to reflect that defendant shall comply with the sex offender registration
requirements, and the Clerk of Court for the Twenty-Fourth Judicial District Court
to send the corrected UCO to the appropriate authorities and the Department of
Corrections’ legal department. La. C.Cr.P. art. 892(B)(2); State v. Carriere. 19-366
(La. App. 5 Cir. 12/26/19), 289 So.3d 149, 153.
Second, we note that the UCO does not include the trial court’s
recommendation that defendant be allowed to participate in “any self-help and/or
work release programs” that may be available to him. Where there is a conflict
between the transcript and the minute entry, the transcript prevails. State v. Lynch.
441 So.2d 732, 734 (La. 1983). Accordingly, we remand the case for correction of
the UCO to reflect the court’s recommendation for any self-help and/or work release
programs available to defendant, and direct the Clerk of Court to transmit the
corrected UCO to the appropriate authorities as well as to the Louisiana Department
of Public Safety and Corrections’ legal department. La. C.Cr.P. art. 892(B)(2); State
v. Vance, 17-72 (La. App. 5 Cir. 8/30/17), 225 So.3d 1192, 1196.

20-KA-60

15

DECREE
For the reasons stated above, we affirm defendant’s conviction and sentence
on count one, but vacate defendant’s convictions and sentences based on nonunanimous jury verdicts on counts two and three, and remand this matter for further
proceedings.
AFFIRMED IN PART; VACATED IN PART; REMANDED

20-KA-60

16

!
i

4

(

J
<t

:

l

t

*
\

*

I

APPENDIX - D
4

4

V

»
t

\
l

V

/

>

' V

«!
SUPREME COURT OF LOUISIANA
WRIT APPLICATION FILING SHEET

no:
TO BE COMPLETED BY COUNSEL or PRO SE LITIGANT FILING APPLICATION
TITLE
Applicant: Rafael A. C. Chinchilla
STATE OF LOUISIANA
Have there been any other filings in this
[X] NO
Court in this matter? [ ] Yes
Are you seeking a Stay Order? No
VS.
Priority Treatment? No
If so you MUST complete & attach a Priority Form
RAFAEL ARTURO COTO CHINCHILLA

LEAD COUNSEL/PRO SE LITIGANT INFORMATION
APPLICANT:

RESPONDENT:

Name:
Rafael A. C. Chinchilla #747756
Address: Rayburn Correctional Center
Highway 21
Angie, LA. 70426-3030

Name: Adrian Adams, Judge
• Address: 24"’ Judicial District Court
200 Derbigny Street
Gretna, Louisiana, 70054

Phone No.
Bar Roll No.
Phone No.
Bar Roll No.
Pleading being filed: [X] In proper person, [ ] In Forma Pauperis
Attach a list of additional counsel/pro se litigants, their addresses, phone numbers and the parties they
represent.
TYPE OF PLEADING
[ ] Civil,
[X] Criminal,
[ ] Bar,
[ ] Civil Juvenile,
[ ] Criminal Juvenile, [ ] Other
ADMINISTRATIVE OR MUNICIPAL COURT INFORMATION
Docket No._
_ Ruling Date:
Judge/Commissioner/Hearing Officer:

Tribunal/Court:_____

DISTRICT COURT INFORMATION
Parish and Judicial District Court: 24lh Judicial District / Jefferson

Docket Number: 17-1472

Judge and Section: Adrian Adams — Division “G " Date of Ruling/Judgment: Direct Anneal
APPELLATE COURT INFORMATION
Circuit: Fifth Docket No. 20-KA-60__________________________
Action: Affirmed in part; Vacated in part; Remanded___________________________________
Applicant in Appellate Court: Rafael A. C. Chinchilla Filing Date: Timely Ruling Date: 12/ 23/ 20
Panel of Judges:

En Banc: [ ]

SJW, RAC. JJM
REHEARING INFORMATION

Applicant: _
Ruling Date:

Date Filed:
Panel of Judges:

Action on Rehearing:
______ En Banc: [ ]

PRESENT STATUS
| ] Pre-Trial, Hearing/Trial Scheduled date:
N/A
., [ ] Trial in Progress, fX] Post Trial
Is there a stay now in effect? No.
Has this pleading been filed simultaneously in any other court? No.
If so, explain briefly
VERIFICATION
I, Rafael Arturo Colo Chinchilla, hereby certify that the above information and all of the
information contained in this application is true and correct to the best of my knowledge and that all relevant
pleadings and rulings, as required by Supreme Court Rule X, are attached to this filing. 1 further certify
that a copy of this application has been mailed or delivered to the appropriate court of appeal (if required),
to the respondent judge in the case of a remedial writ, and to all other counsel and unrepresented parties.

DATE

RAFAEL ARTURO COTO CHINCHILLA

SUPREME COURT
STATE OF LOUISIANA

STATE OF LOUISIANA
VERSUS
RAFAEL ARTURO COTO CHINCHILLA

Louisiana Fifth Circuit Court of Appeals,
Judgment rendered December 23, 2020, Under Docket Number 20- KA-60
24th Judicial District Court, Parish of Jefferson
Under Docket Number 17-1472

APPLICATION FOR WRIT OF CERTIORARI

Respectfully Submitted,

Rafael Arturo Coto Chinchilla #747756
Rayburn Correctional Center
27268 Highway 21, North
Angie, Louisiana 70426-3030

' t

ig

INDEX
PAGE#
Statement of which Considerations set forth

3

Statement of Case

3

Assignment of Errors

3

Summary of the Argument

4

Law and Argument

4

Assignment of Error # 1

4-9

Assignment of Error #2

9-10

Conclusion

10

Prayer

11

Verification

2

■ t

MAY IT PLEASE THE COURT:

Petitioner seek writs with this Honorable court, because the trial court of the 24lh Judicial
District Court, Parish of Jefferson and the Louisiana Fifth Circuit Court of Appeals erroneously
interpreted and misapplied the United States Constitution, laws of this State, and applicable
statutes in this case. The decisions made by the trial court and the appellate court has caused a
great material injustice in this case and requires this court's attention.
STATEMENT OF CASE
On July 18, 2017, the Jefferson Parish District Attorney filed a bill of information
charging petitioner, Rafael Arturo Coto Chinchilla, with sexual battery of a juvenile under
thirteen in violation of La. R.S. 14:43.1 (count one), indecent behavior with a juvenile under
thirteen in violation of La. R.S. 14:81 (count two), and indecent behavior with a juvenile in
violation of La R.S. 14:81 (count three), all involving the same victim. Petitioner pled not guilty.
Jury selection and trial began on August 26, 2019, and trial before a twelve-person jury
concluded on August 30, 2019. The jury unanimously found petitioner guilty as charged on
count one, but found defendant guilty as charged by a ten to two concurrence on counts two and
three. On September 12, 2019, the trial court sentenced petitioner to sixty years imprisonment at
hard labor on count one, twenty-five years of the sentence to be served without the benefit of
parole, probation, or suspension of sentence. Petitioner was informed that, as to count one, upon
release, he must register as a sex offender for the duration of his life and conform to all of the
rules, regulations, and terms of the sex offender registration laws. On count two, the trial court
sentenced petitioner to twenty years imprisonment at hard labor, ten years of the sentence to be
served without the benefit of parole, probation, or suspension of sentence. As to count three,
petitioner was sentenced to seven years imprisonment at hard labor. The trial court ordered the
sentences to run concurrently.
ASSIGNMENT OF ERRORS
1) The evidence in the instant case was insufficient to support a guilty verdict on all
three counts of the bill of information.
2) The trial court erred in failing to sustain the objection during rebuttal closing
arguments when the prosecutor mischaracterized the emergency room doctor’s
testimony, mislead the jury, and tainted the outcome of the trial.

3

' t

K.

SUMMARY OF THE ARGUMENT
The trial and appellate courts erred by not overturning the jury’s verdicts on all three
counts which were based on substantial insufficient evidence. The trial and appellate courts also
erred in failing to sustain the objection during rebuttal of closing arguments when the prosecutor
mischaracterized the emergency room doctor’s testimony, which mislead the jury, and tainted the
outcome of the trial.

LAW AND ARGUMENT

ASSIGNMENT OF ERROR #1
In the present case, the evidence was insufficient to prove the elements of the crimes
charged. La. C.Cr.P. art. 821, paragraph B, presents a codification of the Jackson v. Virginia,
443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979) standard.
In Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979), the United
States Supreme Court set out the standard by which appellate courts are to review the sufficiency
of the evidence in criminal prosecutions:
"...the relevant question is whether, after viewing the
evidence in a light most favorable to the prosecution, any rational
trier of the fact could have found the essential elements of the
crime beyond a reasonable doubt. "

Also see State v. Matthews, 375 So.2d 1165 (La. 1979). In reviewing the sufficiency of
the evidence to support a criminal conviction, the Due Process Clause of the Fourteenth
Amendment to the United States Constitution requires the court to determine whether the
evidence is minimally sufficient. A complete reading of the transcript of this trial shows that the
state failed to meet the burden of proof enunciated by the Supreme Court in Jackson v. Virginia.
In Slate v. Dixon, 620 So.2d 904 (La. App. Is1 Cir. 1993), the First Circuit explained:
“The standard of review for the sufficiency of the evidence
to uphold a conviction is whether or not, viewing the evidence in
the light most favorable to the prosecution, a rational trier offact
could conclude that the State proved the essential elements of the
crime beyond a reasonable doubt. ”

4

' *
The rale regarding circumstantial evidence is set forth in La. R.S. 15:438 as follows:
“...assuming every fact lo be proved that the evidence lends
fo prove, in' order io convictdi inusl exclude every reasonable
hypothesis of innocence. "

Ultimately, all the evidence in the record, viewed in a light most favorable to the state,
must satisfy the reviewing court that a rational trier of fact could have found the defendant guilty
of the crime for which he was convicted, beyond a reasonable doubt. Stale v. Perow, 616 So.2d
1336 (La. App. 3rd Cir. 1993). The circumstantial evidence rule is a component of the reasonable
doubt standard. On appeal, the issue is whether a rational trier of fact, viewing the evidence in a
light most favorable to the state, could find that all reasonable hypothesis of innocence was
excluded.
In order for the State to obtain a conviction, it must prove the elements of the crime
beyond a reasonable doubt. In this case, the entire case rested on the allegations made by C.B. on
the very day her mother married a man other than her father. There was absolutely no physical
evidence in this case. The Emergency Room Doctor, Dr. Tessa Hue, who initially examined C.B.
testified she found no evidence to support the allegations made by C.B. that the petitioner had
kissed her breasts. Dr. Hue saw no bruising or redness around the breast. She testified any marks
she did not see could have been stretch marks from recent growth or marks from a poor fitting
bra. Dr. Hue saw no evidence of bite marks, lacerations, bruising, or hickies on C.B.’s breasts.
The physical examination at Children’s Hospital also found no physical evidence of abuse, but
Dr. Mehta and Department of Child and Family Services found it to be a valid claim. Dr. Mehta
testified that any marks on C.B.’s breasts had no “medical or forensic value.” (Rec. pp. 911-81,
1112-36, 1346-76).
C.B. claimed a video showing her yelling at the petitioner for calling her names was
evidence that he had just kissed her breasts, and somehow this was evidence for the third count.
(Rec. pp. 1137-80). She also alleged the petitioner had kissed her breasts once before and that
was the entirety of the evidence presented by the state for the second count. C.B. also alleged
that some time in August 2015, the first alleged assault, and one of the few times the petitioner
was ever alone with C.B., he entered her bedroom while her mother was getting some tax
documents. This lie could have been contradicted and/or countered, because it is a well known
fact taxes are done at the beginning of the year and not in the summer.

C.B. claimed the

petitioner forced himself on her and she punched and kicked him so much they fell off the bed.
5

C.B. further testified that the petitioner forcibly took her clothes off and inserted Iris penis into
her vagina one time and then withdrew and walked away, No one else in the household testified
to any bruising, destroyed property, or torn clothing. C.B.’s testimony was all the evidence
presented in the first count as well. (Rec. pp. 1279-1337).
By the time of trial, C.B.’s mother, Yamilet Perez-Rivero, no longer believed her
daughter’s allegations. All state witnesses agreed that Ms. Perez, had fully supported and
participated in the investigation of her daughter’s allegations against her new husband. She
brought C.B. to all appointments and took the matter very seriously. The first and most serious
account was alleged -to have occurred when Ms. Perez was out acquiring documents for the
Internal Revenue Service in 2015. In their presentation of evidence to the jury on this very
serious count, the slate did not even provide any evidence from the Internal Revenue Service
showing Ms. Perez needed to provide additional documentation in 2015. Even though she no
longer believed her daughter’s allegations, Ms. Perez had cooperated fully with the police and
the state all along and it can be reasonably assumed she would have provided these documents to
the state and the defense if they existed and she could have provided even the scantest
corroboration of C.B.’s claims. (Rec. pp. 1016-42, 1043-98, 1112-36, 1137-80).
Unfortunately, the trial court did not see the flawed proof and lack of evidence to convict
the petitioner beyond a reasonable doubt. C.B. was the only one making any claims and no
evidence, or corroboration was gathered beyond that. The defense introduced several lewd
Inslagram™ and Snapchal™ messages between C.B. and her classmate and friend Axel Salazar
Garcia, which also never proved anything had happened. (Rec. pp. 1217-70, 1279-1337, 133845). Most telling was that Axel was a state witness in this case and had not been charged with
carnal knowledge or any other crime with C.B. when she was underage based solely on social
media messaging and texts because it simply does not prove anything actually happened. The
jury and the trial court failed to legitimately hold the state to its burden to prove all of the
elements of the crime and to prove them beyond a reasonable doubt. Any and all reasonable
doubts must be decided in favor of Rafael Chinchilla, the petitioner; and not the state. The
evidence was insufficient in this case to support the requisite elements beyond a reasonable
doubt. The state did not meet this burden in trial, in direct appeal, and certainly not now.

6

,j

>
' l

C.B. further testified that the petitioner forcibly took her clothes off and inserted his penis into
her vagina one time and then withdrew and walked away. No one else in the household testified
to any bruising, destroyed property, or torn clothing. C.B.’s testimony was all the evidence
presented in the first count as well. (Rec. pp. 1279-1337).
By the time of trial, C.B.’s mother, Yamilet Perez-Rivero, no longer believed her
daughter’s allegations. All state witnesses agreed that Ms. Perez had fully supported and
participated in the investigation of her daughter’s allegations against her new husband. She
brought C.B. to all appointments and took the matter very seriously. The first and most serious
account was alleged to have occurred when Ms. Perez was out acquiring documents for the
Internal Revenue Service in 2015. In their presentation of evidence to the jury on this very
serious count, the state did not even provide any evidence from the Internal Revenue Service
showing Ms. Perez needed to provide additional documentation in 2015. Even though she no
longer believed her daughter’s allegations, Ms. Perez had cooperated fully with the police and
the state all along and it can be reasonably assumed she would have provided these documents to
the state and the defense if they existed and she could have provided even the scantest
corroboration of C.B.’s claims. (Rec. pp. 1016-42, 1043-98, 1112-36, 1137-80).
Unfortunately, the trial court did not see the flawed proof and lack of evidence to convict
the petitioner beyond a reasonable doubt. C.B. was the only one making any claims and no
evidence or corroboration was gathered beyond that. The defense introduced several lewd
Jnstagram™ and Snapchal™ messages between C.B. and her classmate and friend Axel Salazar
Garcia, which also never proved anything had happened. (Rec. pp. 1217-70, 1279-1337, 133845). Most telling was that Axel was a state witness in this case and had not been charged with
carnal knowledge or any other crime with C.B. when she was underage based solely on social
media messaging and texts because it simply does not prove anything actually happened. The
jury and the trial court failed to legitimately hold the state to its burden to prove all of the
elements of the crime and to prove them beyond a reasonable doubt. Any and all reasonable
doubts must be decided in favor of Rafael Chinchilla, the petitioner; and not the state. The
evidence was insufficient in this case to support the requisite elements beyond a reasonable
doubt. The state did not meet this burden in trial, in direct appeal, and certainly not now.

6

v»
* \
Louisiana jurisprudence has long held that impeached testimony, as a general rule, is not
sufficient to sustain a conviction. Stale v. Chism, 591 So.2d 383, 386 (La. App. 2 Cir. 1991)
citing Slate v. Laprime, 437 So.2d 1124 (La. 1983).
The State’s entire case rested on the uncorroborated allegations made by C.B. on the very
day her mother married a man other than her father.
However, not only were C.B.’s allegations uncorroborated, C.B. was impeached in
several regards.
First, C.B. made statements and went to great lengths to try to portray the impression that
her, Yamilet, ceased attempting to contact her. C.B. testified that her mother never calls her or
sees her anymore. (Rec. p. 1311). C.B. further testified that she wished her mother was still in
her life. (Id.)
However, C.B.’s mother testified that she has repeatedly tried to contact her daughter, but
that her calls have gone unanswered and unreturned. (Rec. p. 1088). Yamilet has even had other
people attempt to contact her daughter on her behalf, to no avail. (Id.)
C.B. also claimed she had no idea petitioner and her mother were getting married anytime
soon. (Rec. p. 1308). Yet C.B.’s mother testified that C.B. knew at least two weeks prior to her
making her allegations that she and the petitioner were getting married. (Rec. pp. 1090-91). In
fact, C.B. was with the petitioner and her mother when they went to the courthouse the first time!
(Id.)
It is also not insignificant that the person C.B. allegedly made the allegations to, her
father, apparently lied at trial to conceal his animosity towards petitioner. C.B.’s father, Haile
Benitez, adamantly denied ever referring to petitioner using derogatory racial slurs, such as
“Indio, Palestine,” or “Guajido.” (Rec. pp. 811-12). However, both C.B.’s mother and uncle
testified that Haile often used these derogatory names when referring to the petitioner. (Rec. p.
1083; Rec. p. 1383).
C.B.’s father also apparently lied about the circumstances when he, C.B., and Yamilet
ever asked him to sign a release so she and C.B. could immigrate to the United Slates.1 (Rec. p.'
802). According to C.B.’s father, he and Yamilet “agreed to come together to the United States
and mutually help one another with the girl.” (Rec. p. 803). However, C.B.’s uncle, who left
Cuba after C.B., her father, and her mother, told the jury that C.B.’s father refused to sign the

Under Cuban law, both parents of a child must sign a release before the child can emigrate. (Rec. pp. 1386-87).

7

' l

release for C.B. unless he and Yamilet did paperwork that allowed him to leave Cuba as well.
Rec. p. 1387). When asked how would he characterize C.B.’s father’s refusal to sign C.B.’s
release, C.B.’s uncle replied, “He saw it as an opportunity to benefit himself.” (Rec. p. 1388).
Additionally, the video C.B. recorded on her phone after the alleged third incident
impeaches C.B.’s account more than it corroborates it. The interpreter told the jury that C.B.
stated in this video, “Don’t call me like that anymore, Jonathan. Leave me alone. Shut up.” (Rec.
p. 1164). When defense counsel asked Detective Foltz whether C.B. sounded frightened on the
video or just upset, Detective Foltz responded, “It’s fair to say she was just upset.” (Rec. p.
1188). The point is that in the video, C.B. sounds like an emotional teenager in an argument with
a parent, not someone who she just fended off an attempted molestation. C.B.’s choice of words
in the video also contradicts her allegation of what transpired immediately prior. Notably, C.B.
does not say, “Stay out of my room,” or “Don’t touch me like that/again,” or “Keep your hands
off me,” or “I’m going to tell mom,” or indeed anything that suggests she was just molested. No,
instead she said, “Don’t call me like that anymore Jonathan. Leave me alone. Shut up.” The State
would have been better off not even playing this video.
There is also the fact that none of the improper texts C.B. alleged petitioner sent to her
were recovered from the petitioner’s phone. C.B. claimed petitioner sent her text messages
stating that he loved her and that she would kill her if her saw her with anyone else. (Rec. p.
1283). C.B. also allegedly took a screenshot of a message from the petitioner that states, “1
cannot contain the needs and desires for us to make love. Erase or delete.” (Rec. p. 1257).
However, petitioner voluntarily turned over his phone to police. Detective Solomon Burke
testified that he is the supervisor for the digital forensics unit of the Jefferson Parish Sheriffs
Office. Detective Burke personally extracted the data from the petitioner’s phone, but was unable
to locate a single incriminating text from petitioner’s phone. (Rec. pp. 12.52-63).
The State got almost every single one of its witnesses to express their opinion as to C.B.’s
veracity. Besides the fact that this was highly improper and defense counsel was ineffective for
allowing it to go the extent that it did, these witness’s opinions as to C.B.’s credibility cannot be
considered as substantive evidence of petitioner’s guilt. After the persistent victim bolstering
testimony is removed, all the State has left is the uncorroborated, impeached testimony of the
alleged victim, C.B. Petitioner respectfully submits that under Louisiana jurisprudence C.B.’s
impeached testimony is not sufficient to sustain a verdict of guilty on all three counts.

8

o
11 I

ASSIGNMENT OF ERROR #2
The prosecutor in rebuttal closing arguments was refuting the defense argument that the
first- doctor to see C.B. found no evidence of sexual abuse, but since the allegation was made, she
had to report it to police as a matter of law. The state mischaracterized the evidence presented by
saying Dr. Hue who was the defense’s expert who diagnosed C.B. as having child sexual abuse.
This was misleading to the jury and an overreach by the prosecutor mischaracterizing the
testimony. The trial court failed to sustain the defense’s objection. Dr. Hue had to report this as
child sexual abuse because an allegation was made. It was a forgone conclusion mandated by law
before her exam and expertise was ever applied to the case. Dr. Mehta, the expert in child abuse
at Children’s Hospital, also found.no physical evidence that had any “medical or forensic value”
but based on other factors in her expertise she found a valid claim was made. Her testimony was
vastly different from what Dr. Hue found yet had to report by law. The prosecutor
mischaracterized the testimony of Dr. Hue and clearly mislead the jury. (Rec. pp. 911-81, 134676, 1464-6).
La. C.Cr.P. art. 774 requires that closing arguments at trial be confined “to evidence
admitted, to the lack of evidence, to conclusions of fact that the state or defendant may draw
therefrom, and to the law applicable to the case.” State v. Smallwood. 20 So.3d 479, 489 (La.
App. 5 Cir. 7/28/09). State v. Robertson, 995 So.2d 650, (La. App. 5 Cir. 10/28/08). Closing
arguments shall not appeal to prejudice. Id at 659. A prosecutor has considerable latitude in
making closing arguments. State v. Jackson, 880 So.2d 69 (La. App. 5 Cir. 7/27/04). However.
prosecutors may not resort to personal experience or turn their arguments into a referendum on
crime. Robertson, at 659-60.
The trial judge has broad discretion in controlling the scope of closing arguments.
Robertson at 660. A conviction will not be reversed due to improper remarks during closing
arguments unless the reviewing court is thoroughly convinced that the remarks influenced the
jury and contributed to the verdict. Id. (citing Jackson, 04-293 at 5-6, 880 So.2d 69 at 73). In
making its determination, the appellate court should give credit to the good sense and fairmindedness ol the jury that has seen the evidence and heard the argument, and has been
instructed that the arguments of counsel are not evidence. Id.
In addition, assuming the prosecutor’s argument was improper, reversal is not required
when such error was limited and did not show significant impact on the outcome of the case.

9

Stale v. Huckaby, 809 So.2d 1093 (La. App,4 Cir. 2/6/02), Slate v. Francis, 665 So.2d 596, 604,
(La. App. 5 Cir. 11/28/959: and Stale v. Foster, 33 So.3d 733, 741-3 (La. App. 5 Cir. 6/29/10).
The trial court should have stemmed the damage by sustaining the objection. (Rec. pp.
1464-6). Once the jury heard this misleading comment from the prosecutor, the nearly
unavoidable inference made a fair trial and fair assessment of the evidence unlikely since the
petitioner was accused of a sex crime against a juvenile.
The error was not harmless because the verdict was not solely unattributable to the error.
Louisiana adopted the federal test for harmless error enunciated in Chapman v. California, 386
U.S. 18, 87 S.Ct. 824, 17 L.Ed.2d 705 (1967). The test in Chapman is whether it appears
“beyond a reasonable doubt that the error complained of did not contribute to the verdict
obtained.” 386 U.S. at 24; 97 S.Ct. at 828. Chapman was refined in Sullivan v. Louisiana, 508
U.S. 275, 113 S.Ct. 2078, 124 L.Ed.2d 182 (1993). The Sullivan inquiry “is not whether, in a
trial that occurred without the error, a guilty verdict would surely have been rendered, but
whether the guilty verdict actually rendered in tis trial was surely unattributable to the error.” Id.,
113 S.Ct. at 2081.
In the present case, the error in not sustaining the objection was not harmless because it
was so prejudicial and depicting the petitioner as a child sex abuser. The state implied to the jury
that since “all” experts diagnosed sexual abuse they can therefore find the petitioner a sex abuser
based on all of these doctor’s expertise. Dr. Hue only testified she had to report and diagnose the
claims because a claim was made by a juvenile. Her investigation showed no evidence of sexual
abuse. Perhaps this was why the state did not call the first doctor to see C.B. as a witness. The
state tried to mitigate her testimony after the fact by mischaracterizing it in rebuttal closing
arguments, when the defense can no longer correct the mislead. The jury’s verdict can not be
considered “unattributable” to this error.
CONCLUSION
WHEREFORE. Rafael Arturo Colo Chinchilla, pro se and in proper person, respectfully
requests that, following all reasonable delays and due proceedings had, this Honorable Court
grant relief in the foregoing entitled matter, in accordance with the foregoing discussion and
applicable jurisprudence.

10

„

>

PRAYER
WHEREFORE Petitioner PRAYS that this foregoing Application for Writ of Certiorari
be granted and a reversal be warranted herein.

Respectfully Submitted,

Rafael Arturo Coto Chinchilla # 747756
Rayburn Correctional Center
27268 Highway 21, North
Angie, Louisiana 70426-3030

VERIFICATION
I, Rafael Arturo Coto Chinchilla, do hereby declare under penalty of perjury that the
foregoing facts contained herein are true and correct to the best of my knowledge and belief and
the foregoing has been forwarded to the District Attorney in and for the 24lh Judicial District
Court. Parish of Jefferson, State of Louisiana this

day of January, 2021, Angie, Louisiana

70426-3030.

Rafael Arturo Coto Chinchilla

11

3

::

APPENDIX - E

X.v

of ilpjSfafB of^latttstatta
STATE OF LOUISIANA
No. 2021-KO-00274

VS.
RAFAEL ARTURO COTO CHINCHILLA

IN RE: Rafael Chinchilla - Applicant Defendant; Applying For Writ Of Certiorari,

Parish of Jefferson, 24th Judicial District Court Number(s) 17-1472, Court of
Appeal, Fifth Circuit, Number(s) 20-KA-60;
April 27,2021
Writ application denied.
JTG
JLW
SJC
WJC
JBM
PDG
Hughes, J., would grant.

